APPENDIX

A-1
Appendix A Summary Order of the United States
Court of Appeals for the Second Circuit,
Filed July 2, 2019
18-2572-cv
Paterno v. City of New York et al.
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT
HAVE PRECEDENTIAL EFFECT. CITATION
TO A SUMMARY ORDER FILED ON OR AFTER
JANUARY 1, 2007, IS PERMITTED AND IS
GOVERNED
BY
FEDERAL
RULE
OF
APPELLATE PROCEDURE 32.1 AND THIS
COURT’S LOCAL RULE 32.1.1. WHEN CITING
A SUMMARY ORDER IN A DOCUMENT FILED
WITH THIS COURT, A PARTY MUST CITE
EITHER THE FEDERAL APPENDIX OR AN
ELECTRONIC
DATABASE
(WITH
THE
NOTATION “SUMMARY ORDER”). A PARTY
CITING TO A SUMMARY ORDER MUST
SERVE A COPY OF IT ON ANY PARTY NOT
REPRESENTED BY COUNSEL.
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley
Square, in the City of New York, on the 2nd day of
July, two thousand nineteen.

A-2
PRESENT:
BARRINGTON D. PARKER,
PETER W. HALL,
CHRISTOPHER F. DRONEY,
Circuit Judges.
————————————————————
No. 18-2572-cv
JOHN PATERNO,
v.

Plaintiff-Appellant,

CITY OF NEW YORK, NEW YORK CITY
DEPARTMENT OF TRANSPORTATION,
POLLY TROTTENBERG,
Defendants-Appellees.
————————————————————
Appearing for Plaintiff-Appellant: ARTHUR
ZACHARY SCHWARTZ, Advocates for Justice,
Chartered Attorneys, New York, NY.
Appearing for Defendants-Appellees: BARBARA
GRAVES-POLLER (Richard Dearing, Jane L.
Gordon, on the brief), for Zachary W. Carter,
Corporation Counsel of the City of New York, New
York, NY.
Appeal from a judgment of the United States
District Court for the Southern District of New York
(Schofield, J.).
UPON DUE CONSIDERATION, IT IS
HEREBY
ORDERED,
ADJUDGED,
AND
DECREED that the judgment entered on August 1,
2018, is AFFIRMED.

A-3
Plaintiff-Appellant John Paterno, formerly the
Executive Director of Fleet Services for the New
York City Department of Transportation (“DOT”),
appeals from a judgment dismissing his 42 U.S.C.
§ 1983 lawsuit against Defendants-Appellees the City
of New York, the DOT, and former Transportation
Commissioner
Polly
Trottenberg
(collectively,
“Defendants”). Paterno asserted a “stigma-plus”
claim stemming from a 2017 Title VII lawsuit
brought by the United States against the City and
DOT after an investigation, his 2016 transfer out of a
supervisory position during that investigation, and
the subsequent publication of allegedly false
accusations against him. He also claimed that
Defendants retaliated against him, in violation of his
First Amendment right to speak on matters of public
concern, after he confronted certain employees about
the Title VII case. The district court dismissed his
complaint for failure to state a claim. This appeal
follows. We assume the parties’ familiarity with the
facts, record of prior proceedings, and arguments on
appeal, which we reference only as necessary to
explain our decision to affirm.
We review de novo a district court’s grant of a
motion to dismiss for failure to state a claim.
Vangorden v. Second Round, Ltd. P’ship, 897 F.3d
433, 437 (2d Cir. 2018). To survive a motion to
dismiss, a complaint must allege facts sufficient “to
state a claim to relief that is plausible on its face.”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (internal
quotation marks omitted). “[M]ere conclusory
statements” will not suffice, Iqbal, 556 U.S. at 678:
the “[f]actual allegations must be enough to raise a
right to relief above the speculative level,” Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 555 (2007). “On a
motion to dismiss, all factual allegations in the

A-4
complaint are accepted as true and all inferences are
drawn in the plaintiff’s favor.” Littlejohn v. City of
New York, 795 F.3d 297, 306 (2d Cir. 2015). We may
affirm on any ground that finds support in the
record. See, e.g., Thyroff v. Nationwide Mut. Ins. Co.,
460 F.3d 400, 405 (2d Cir. 2006).
To succeed on a “stigma plus” claim under § 1983,
“a plaintiff must show (1) the utterance of a
statement sufficiently derogatory to injure his or her
reputation, that is capable of being proved false, and
that he or she claims is false, and (2) a material
state-imposed burden or state-imposed alteration of
the plaintiff’s status or rights.” Sadallah v. City of
Utica, 383 F.3d 34, 38 (2d Cir. 2004) (internal
quotation marks omitted). A plaintiff must also
“show the stigmatizing statements were made
concurrently in time” with the burden on his or her
rights. Patterson v. City of Utica, 370 F.3d 322, 330
(2d Cir. 2004).
Setting aside the “stigma” prong of Paterno’s
claim, we have doubts as to whether he adequately
alleged he was deprived without due process of a
“tangible interest.” See Patterson, 370 F.3d at 330. In
any event, Paterno’s appeal must fail because he did
not—and
cannot—plead
that
the
alleged
stigmatizing statements were made “concurrently in
time” with the alleged deprivation. See id. The
consent decree in the Title VII case was not made
public until a year after Paterno’s transfer, and any
allegedly defamatory statements by Commissioner
Trottenberg were even further removed in time. See
Martz v. Inc. Vill. of Valley Stream, 22 F.3d 26, 32
(2d Cir. 1994) (holding that a five-month separation
was too attenuated).

A-5
With respect to his First Amendment retaliation
claim, Paterno failed to make out the first element of
a prima facie case. The first element requires a
plaintiff to “plausibly allege that [ ] his or her speech
or conduct was protected by the First Amendment.”
Montero v. City of Yonkers, 890 F.3d 386, 394 (2d Cir.
2018) (internal quotation marks omitted). To
determine whether an employee’s speech was
protected, the threshold question is “whether the
employee spoke as a citizen on a matter of public
concern.” Matthews v. City of New York, 779 F.3d
167, 172 (2d Cir. 2015) (internal quotation marks
omitted). If the speech was not on a matter of public
concern, “that is the end of the matter.” Id.
Although Paterno insists otherwise, we conclude
that the speech in question “was calculated to
redress personal grievances,” not directed toward “a
broader public purpose.” See Lewis v. Cowen, 165
F.3d 154, 163 (2d Cir. 1999); see also Montero, 890
F.3d at 400 (“[A] public employee may not transform
a personal grievance into a matter of public concern
by invoking a supposed popular interest in the way
public institutions are run.” (quoting Ruotolo v. City
of New York, 514 F.3d 184, 190 (2d Cir. 2008))).
Although Paterno contends “[t]here is nothing in the
pleadings that places Appellant’s speech outside the
protection of the First Amendment,” Reply Br. at 16–
17, this argument misconceives Paterno’s burden at
the pleading stage. He must “plausibly allege” that
his speech was within the protection of the First
Amendment. That he has not done. The complaint’s
description of the speech at issue is vague and
conclusory. To the extent it offers any clarity
regarding the speech’s “content, form, and context,”
Montero, 890 F.3d at 399 (internal quotation marks

A-6
omitted), it does not support an inference that
Paterno was speaking on a matter of public concern.
We have considered Paterno’s remaining
arguments and find them to be without merit. The
judgment of the district court is AFFIRMED.
FOR THE COURT:
CATHERINE O’HAGAN WOLFE, Clerk of Court

B-1
Appendix B Opinion and Order of the United States
District Court for the Southern District
of New York, Filed July 31, 2018
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
17 Civ. 8278 (LGS)
OPINION AND ORDER
————————————————————
JOHN PATERNO,
Plaintiff,
-againstTHE CITY OF NEW YORK, et al.,
Defendants.
————————————————————
LORNA G. SCHOFIELD, District Judge:
Plaintiff John Paterno brings this action against
the City of New York (the “City”) and Polly
Trottenberg, the Commissioner of the New York City
Department of Transportation (the “DOT”), pursuant
to 42 U.S.C. §1983. This case arises out of actions
taken by DOT against Plaintiff in connection with
allegations of racial discrimination directed at DOT
and Plaintiff when he was an Executive Director of a
subdivision of DOT. In the Amended Complaint (the
“Complaint”) Plaintiff asserts two causes of action.
The first is based on a “stigma-plus” theory, alleging
that Defendants violated Plaintiff’s due process
rights “[b]y transferring and demoting [him] in a

B-2
manner that causes injury to his reputation, limiting
his current and future earning opportunities, and
denying him a venue to clear his name;” and the
second cause of action alleges that Defendants
violated Plaintiff’s First Amendment rights by
“taking disciplinary/retaliatory action against Mr.
Paterno for talking to fellow employees . . . .”
Defendants move to dismiss the Complaint pursuant
to Federal Rule of Civil Procedure 12(b)(6) for failure
to state a claim upon which relief can be granted. For
the reasons below, the motion is granted.
I.

BACKGROUND

The following facts are drawn from the Complaint
and documents attached to or integral to the
Complaint, and are accepted as true for the purposes
of this motion. See Tannerite Sports, LLC v. NBC
Universal News Grp., 864 F.3d 236, 247-48 (2d Cir.
2017).
A. The Title VII Action
On January 18, 2017, the United States Attorney’s
Office for the Southern District of New York sued the
City and the DOT for violations of Title VII of the
Civil Rights Act of 1964, 42 U.S.C. § 2000 et seq.,
alleging a pattern and practice of racial
discrimination and retaliation based on the failure to
promote minority employees working at the DOT
(the “Title VII Complaint”). The Title VII Complaint
alleges that racial discrimination occurred in the
Fleet Services subdivision of the Roadway Repair
and Maintenance Division, and identifies two
Executive Directors as the principal wrongdoers.
Although the Title VII Complaint does not name
either Executive Director, Plaintiff is easily
identifiable as Executive Director II.

B-3
The Title VII Complaint accuses Plaintiff of
promoting less-qualified Caucasian employees over
their better-qualified minority counterparts, and
giving Caucasian employees the most desirable jobs.
The Title VII Complaint also accuses Plaintiff of
reducing a subordinate’s access to overtime
payments, in order to punish him for complaining
that a highly-qualified minority candidate was
passed over for a promotion in favor of a lessqualified Caucasian employee. According to the Title
VII Complaint, when a highly-qualified minority
employee complained that he did not receive a
promotion, Plaintiff yelled at the employee: “I’ll take
you outside and kick your fucking ass.” The Title VII
Complaint also states that Plaintiff lied to the DOT’s
Office of Equal Employment Opportunity (“EEO”),
telling them that he never heard Executive Director I
use racial epithets to refer to African American
employees. On June 13, 2017, the City and DOT
entered into a consent decree with the federal
government, admitting to all allegations in the Title
VII Complaint (the “Consent Decree”).
Defendants never questioned Plaintiff about the
critical allegations in the Title VII Complaint before
the Consent Decree was signed and published.
Plaintiff denies the allegations contained in the Title
VII Complaint and Consent Decree. On June 16,
2016, before the filing of the Title VII Complaint,
Plaintiff was transferred to a less-desirable position
in the DOT, without any explanation or ability to
appeal, and his pay was cut by approximately
$60,000 per year (the “Demotion”). The basis for the
Demotion was the allegations of discriminatory
conduct that underpin the Title VII Complaint and
Consent Decree.

B-4
B. The Press Accounts
Subsequent to the execution of the Consent
Decree, The Chief, a widely circulated public
employee newspaper, published multiple articles
criticizing Plaintiff. An article published on June 26,
2017, described the incident in which Plaintiff
“verbally threatened . . . with a threat of physical
violence
a
non-management
employee
who
confronted him about his racist treatment of
minority employees.” In a letter to the editor printed
on July 3, 2017, and referenced in a June 30, 2017,
article, Defendant Trottenberg identified Plaintiff by
name, and stated that the DOT had taken
“aggressive action” to rectify the matters discussed in
the Consent Decree. Defendant Trottenberg stated
that the DOT “removed John Paterno, the main
subject of the investigation, from his position,
reassigning him to a position without supervisory
responsibility and no role in hiring or promotions.”
According to the article, Plaintiff’s “compensation
dropped from $197,000 in 2015 to $163,000 last
year.” In an article printed on July 17, 2017, the
Chairman of the City Council Committee on Civil
Service and Labor, I. Daneek Miller, called for
Plaintiff’s firing. The Demotion, coupled with the
allegations in the Consent Decree and negative
publicity, destroyed Plaintiff’s opportunities for
advancement in the DOT and hurt his job prospects
outside the DOT.
C. The Flatlands Yard Incident
On approximately June 26, 2017, shortly after the
first article about the Consent Decree appeared in
The Chief, Plaintiff was served with a Notice of
Complaint, which states that Plaintiff had been

B-5
accused of “retaliation” by his former coworkers. The
Notice of Complaint states, in relevant part:
On June 19, 2017, the New York City
Department of Transportation’s Office of Equal
Employment Opportunity received a complaint
against you alleging unlawful retaliation and
has opened an investigation in connection with
the complaint. In sum, the allegation contained
in the complaint is that you have contacted DOT
employees in connection with their participation
in the lawsuit U.S.A. v. City of New York.
Specifically, it is alleged that you appeared at
Flatlands Yard on June 16, 2017 and spoke to
DOT employees regarding the consent decree
executed in U.S.A. v. City of New York, including
speaking with individuals who are identified as
Claimants in that action.
On July 19, 2017, Plaintiff’s attorney sent a letter to
Defendant Trottenberg, in which Plaintiff denied all
allegations of wrongdoing. On July 24, 2017, The
Chief published an account of Plaintiff’s attorney’s
letter. Then, on approximately September 15, 2017,
Plaintiff received a further letter stating that the
EEO had finished its investigation, and found that
the claims of retaliation were substantiated. On
January 30, 2018, Plaintiff received a Notice of
Informal Conference, notifying him that the charges
against him would be adjudicated by the DOT, Office
of the Advocate.
The Notice of Informal Conference further
informed Plaintiff that if he did not accept the
Conference Leader’s decision, he would have the
option of proceeding with an alternative hearing
pursuant to § 75 of the New York Civil Service Law.

B-6
The informal conference was scheduled for February
14, 2018. The Notice of Informal Conference charged
Plaintiff with (1) going to the Flatlands Yard facility
on June 16, 2017, while on a leave of absence, and
having no official business at the facility; (2)
questioning subordinate minority employees at
Flatlands Yard about their participation in the
Consent Decree and whether they testified against
him and (3) describing to subordinate minority
employees what their specific awards were under the
Consent Decree.
II. STANDARD
To survive a motion to dismiss under Rule 12(b)(6),
“a complaint must contain sufficient factual matter,
accepted as true, ‘to state a claim to relief that is
plausible on its face.’” Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009) (quoting Bell Atl. Corp. v. Twombly, 550
U.S. 544, 570 (2007)). “Threadbare recitals of the
elements of a cause of action, supported by mere
conclusory statements, do not suffice.” Iqbal, 556
U.S. at 678. “To survive dismissal, the plaintiff must
provide the grounds upon which his claim rests
through factual allegations sufficient ‘to raise a right
to relief above the speculative level.’” ATSI
Commc’ns, Inc. v. Shaar Fund, Ltd., 493 F.3d 87, 98
(2d Cir. 2007) (quoting Twombly, 550 U.S. at 555).
On a Rule 12(b)(6) motion, “all factual allegations in
the complaint are accepted as true and all inferences
are drawn in the plaintiff’s favor.” Littlejohn v. City
of New York, 795 F.3d 297, 306 (2d Cir. 2015); accord
In re Neurotrope, Inc. Sec. Litig., No. 17 Civ. 3718,
2018 WL 2561024, at *3 (S.D.N.Y. June 4, 2018).

B-7
III. DISCUSSION
In order to succeed on a claim under 42 U.S.C.
§ 1983, “a plaintiff must allege that (1) the defendant
was a state actor, i.e., acting under color of state law,
when he committed the violation and (2) the
defendant deprived the plaintiff of rights, privileges
or immunities secured by the Constitution or laws of
the United States.” Milan v. Wertheimer, 808 F.3d
961, 964 (2d Cir. 2015) (citations omitted); accord
Mosca v. City of New York, No. 17 Civ. 4327, 2018
WL 2277837, at *3 (E.D.N.Y. May 18, 2018). For the
reasons below, the Complaint fails to state a
constitutional claim under § 1983.
A. Fifth Amendment Due Process
The Complaint’s Fifth Amendment claim is
dismissed for failure to name a proper defendant.
The Due Process Clause of the Fifth Amendment
applies to only the Federal Government. See
Dusenbery v. United States, 534 U.S. 161, 167 (2002)
(“The Due Process Clause of the Fifth Amendment
prohibits the United States, as the Due Process
Clause of the Fourteenth Amendment prohibits the
States, from depriving any person of property
without ‘due process of law.’”) (internal citations
omitted); Garcia v. City of New York, No. 15 Civ.
7470, 2017 WL 1169640, at *7 (S.D.N.Y. Mar. 28,
2017) (“[T]he Fifth Amendment only applies to
claims against the federal government, and Plaintiffs
have not named any federal defendants.”). Here, the
Complaint raises claims against only the City and
the Commissioner of the DOT; it does not raise
claims against any federal officials or entities.
Accordingly, the Complaint fails to state a Fifth
Amendment claim.

B-8
B. Fourteenth Amendment Due Process
The Complaint raises a “stigma-plus” theory of due
process liability. 1 The “stigma-plus” claim is
dismissed, because the Complaint does not identify a
stigmatizing statement and Plaintiff received
sufficient post-deprivation name clearing.
1.

“Stigma-Plus”

“To establish a ‘stigma-plus’ claim, a plaintiff must
show (1) [stigma --] the utterance of a statement
sufficiently derogatory to injure [plaintiff’s]
reputation, that is capable of being proved false, and
that he or she claims is false, and (2) [a plus --] a
material state-imposed burden or state-imposed
alteration of the plaintiff’s status or rights.” Vega v.
Lantz, 596 F.3d 77, 81 (2d Cir. 2010); accord Dowd v.
DeMarco, No. 17 Civ. 8924, 2018 WL 2926619, at *7
(S.D.N.Y. June 12, 2018). Accordingly, “even where a
plaintiff’s allegations would be sufficient to
demonstrate a government-imposed stigma, such
defamation is not, absent more, a deprivation of a
liberty or property interest protected by due process.”
Vega, 596 F.3d at 81; accord McNaughton v. de
Blasio, No. 14 Civ. 221, 2015 WL 468890, at *14
(S.D.N.Y. Feb. 4, 2015). “Burdens that can satisfy the
‘plus’ prong under this doctrine include the
deprivation of a plaintiff’s property, and the
To the extent that other theories for a Due Process Clause
violation could have been raised based on the facts described in
the Complaint, they are deemed waived for a failure to brief.
See, e.g., Lin v. Sessions, 681 F. App’x 86, 88 (2d Cir. 2017)
(summary order) (“Issues not sufficiently argued in the briefs
are considered waived . . .”); Pirnik v. Fiat Chrysler
Automobiles, N.V., No. 15 Civ. 7199, 2018 WL 3130596, at *2 n.
2 (S.D.N.Y. Jun. 26, 2018) (same).
1

B-9
termination of a plaintiff’s government employment.”
Sadallah v. City of Utica, 383 F.3d 34, 38 (2d Cir.
2004) (internal citations omitted); accord Filteau v.
Prudenti, 161 F. Supp. 3d 284, 294 (S.D.N.Y. 2016).
“However, deleterious effects flowing directly from a
sullied reputation, standing alone, do not constitute
a ‘plus’ under the ‘stigma plus’ doctrine.” Sadallah,
383 F.3d at 38; accord Autotech Collision Inc. v. The
Inc. Vill. of Rockville Ctr., 673 F. App’x 71, 74 (2d
Cir. 2016) (summary order).
In order to survive a motion to dismiss on a
“stigma-plus” claim, the complaint must plead the
particulars of a “statement sufficiently derogatory to
injure” the plaintiff’s reputation; not merely general
characterizations or summaries of those statements.
Vega, 596 F.3d at 81; see, e.g., Filteau, 161 F. Supp.
3d at 293 (dismissing a “stigma-plus” complaint
where the allegations of “stigma” were “conclusory
and speculative”); Miley v. Hous. Auth. of City of,
Bridgeport, 926 F. Supp. 2d 420, 432 (D. Conn. 2013)
(dismissing a complaint where the “allegations are
devoid of specific factual content to state a claim to
relief for a stigma-plus violation that is plausible on
its face”).
In analyzing the “stigma” component of a “stigmaplus” claim, courts look to state substantive law of
defamation. See, e.g., Sharpe v. City of New York, No.
11 Civ. 5494, 2013 WL 2356063, at *6 n. 10
(E.D.N.Y. May 29, 2013), aff’d, 560 F. App’x 78 (2d
Cir. 2014) (“federal courts in New York often look to
New York defamation law when analyzing a “stigmaplus” claim.”); Boss v. Kelly, No. 07 Civ. 2113, 2007
WL 2412261, at *6 (S.D.N.Y. Aug. 23, 2007) (“For
purposes of [plaintiff’s] section 1983 liberty interest
claim, this Court looks to New York’s substantive

B-10
state law regarding defamation.”); Pisani v.
Westchester Cty. Health Care Corp., 424 F. Supp. 2d
710, 718 (S.D.N.Y. 2006) (“Establishing defamation
in the § 1983 context is no different than under New
York State law.”).
For the “stigma” prong of the claim, the Complaint
alleges that Defendants made “erroneous allegations
of discriminatory conduct” about Plaintiff and refers
specifically to the Consent Decree and Trottenberg’s
letter to The Chief as quoted in a July 30, 2017,
article. The Consent Decree and the July 30 article
are appended to the Complaint and are the only
statements of Defendants’ that the Complaint
specifically identifies and challenges. These
statements are insufficient to plead stigma.
First, the Consent Decree, which does not even
mention Plaintiff by name, cannot constitute a
stigmatizing statement, because it was made in the
course of a legal proceeding. Under New York law,
“statements uttered in the course of a judicial
proceeding are absolutely privileged, as long as such
statements are material and pertinent to the
questions involved in the proceeding.” Stega v. New
York Downtown Hosp., -- N.E.3d --, 2018 WL
3129383, at *4 (N.Y. June 27, 2018); see also Front,
Inc. v. Khalil, 24 N.Y.3d 713, 718–20 (2015) (“[I]t is
well-settled that statements made in the course of
litigation are entitled to absolute privilege . . . .”).
Such privileged statements cannot form the basis for
a “stigma-plus” claim. See, e.g., Sharpe, 2013 WL
2356063, at *7 (denying a “stigma-plus” claim based
on statements that “fall squarely within the scope of
the privilege that attaches to statements made in the
course of judicial proceedings”). Here, the Consent
Decree and the statements in it are absolutely

B-11
privileged and cannot be the basis for a claim,
because they are material and pertinent to the
questions involved in the Title VII proceeding -- i.e.,
whether the DOT engaged in racial discrimination.
Plaintiff asserts that Defendant Trottenberg’s
statements to The Chief, as reflected in the June 30,
2017, article, are actionable because they “very
publicly supported the characterization of the
Plaintiff in the Consent Decree as a vile racist . . . .”
Defendant Trottenberg is quoted as making the
following four statements in that article:
1.

The nine-year period described in the
Consent Decree “represent[s] a terrible
chapter in this agency’s history.”

2.

“[U]nder my leadership, racism and
discriminatory behavior of any sort are not
tolerated. This administration and this
agency believe diversity, tolerance and equal
opportunity are fundamental principles . . .”

3.

The DOT took “aggressive” action to
“dramatically” restructure senior leadership
in 2015 and 2016, in order “to address the
concerns raised by the complainants.”

4.

The “DOT removed John Paterno, the main
subject of the investigation, from his
position, reassigning him to a position
without supervisory responsibility and no
role in hiring or promotions.”

The first two statements -- referencing “a terrible
chapter” and “fundamental principles” - - are not
actionable because they are opinions, which are not
“capable of being proved false.” Vega, 596 F.3d at 81;
see, e.g., Sharpe, 2013 WL 2356063, at *6 (“a

B-12
statement of opinion, rather than fact . . . is not
actionable as a stigmatizing remark.”); Wiese v.
Kelley, No. 08 Civ. 6348, 2009 WL 2902513, at *6
(S.D.N.Y. Sept. 10, 2009) (“The Attorney General’s
description of the conduct resulting in the loss of
data as ‘extremely troubling’ is a statement of
opinion, rather than fact, and as such is not
actionable as a stigmatizing remark.”); cf. Apionishev
v. Columbia Univ. in City of New York, No. 09 Civ.
6471, 2012 WL 208998, at *10 (S.D.N.Y. Jan. 23,
2012)
(dismissing
a
libel
claim,
because
“[e]xpressions of opinion are not actionable”). The
Complaint does not, and cannot, “raise the falsity of
these stigmatizing statements as an issue,” because,
neither Defendant Trottenberg’s description of the
“terrible chapter” in the DOT’s history, nor her
affirmation of the DOT’s belief in diversity as a
fundamental principle is capable of being disproven.
Patterson v. City of Utica, 370 F.3d 322, 330 (2d Cir.
2004).
The third and fourth statements by Defendant
Trottenberg cannot establish “stigma,” because the
Complaint does not claim that they are false. See
Vega, 596 F.3d at 81 (“To establish a ‘stigma plus’
claim, a plaintiff must show (1) the utterance of a
statement sufficiently derogatory to injure his or her
reputation, that is capable of being proved false, and
that he or she claims is false . . . .”); see also DiBlasio
v. Novello, 413 F. App’x 352, 356 (2d Cir. 2011)
(summary order) (“Because the statement was not
false, it cannot form the basis for a stigma plus
claim, however stigmatizing it might appear to be.”)
(citations omitted). The Complaint acknowledges
that both statements are true; it states that Plaintiff
was demoted to a lesser position on June 16, 2016,
and that “[t]he basis for this Demotion was the false

B-13
allegations of discriminatory conduct that formed the
basis for the Consent Decree . . .” Negative inferences
that might be drawn from the factually accurate
description of Plaintiff’s reassignment are not
sufficient. See, e.g., O’Connor v. Pierson, 426 F.3d
187, 195 (2d Cir. 2005) (“Even if O’Connor is correct
that townsfolk drew negative inferences from his
suspension, this is not enough to make out a stigmaplus claim.”); Attallah v. New York Coll. of
Osteopathic Med., 94 F. Supp. 3d 448, 455 n.8
(E.D.N.Y. 2015) (“such statements would not satisfy
the ‘stigma plus’ requirements because they are
facially accurate; simply ‘announc[ing]’ the fact of
plaintiff’s expulsion, stigmatizing or not, cannot be
shown or plausibly alleged to be false because
plaintiff was indeed expelled.”). As none of the
statements Defendant Trottenberg provided to The
Chief establish “stigma,” the first cause of action is
dismissed.
2.

Post-Deprivation Process

Even if the Complaint had properly pleaded a
“stigma-plus” claim, it nevertheless requires
dismissal because Plaintiff received an adequate
post-deprivation remedy. The Second Circuit has
held that in cases “involving an at-will government
employee, the availability of an adequate, reasonably
prompt, post-termination name-clearing hearing is
sufficient to defeat a stigma-plus claim.” Segal v.
City of New York, 459 F.3d 207, 214 (2d Cir. 2006);
accord Schneider v. Chandler, No. 16 Civ. 6560, 2018
WL 770395, at *7 (S.D.N.Y. Feb. 7, 2018). Under
New York law, state employees may appeal adverse
employment
determinations
made
by
their
employers pursuant to an Article 78 proceeding in
state court. See N.Y. CPLR 7801, et seq. “An Article

B-14
78 proceeding provides the requisite post-deprivation
process” for a “stigma-plus” claim. Anemone v. Metro.
Transp. Auth., 629 F.3d 97, 121 (2d Cir. 2011)
(citations omitted); see also Patterson, 370 F.3d at
335 (“The appropriate remedy for a stigma-plus
claim premised on a plaintiff’s termination from atwill government employment is a post-deprivation
name-clearing hearing.”); accord Gallagher v. New
York City Health & Hosps. Corp., No. 16 Civ. 4389,
2017 WL 4326042, at *3 n.1 (S.D.N.Y. Sept. 20,
2017).
Plaintiff’s decision not to avail himself of the
process he was due -- i.e., an Article 78 proceeding -does not constitute a denial of due process. See, e.g.,
Giglio v. Dunn, 732 F.2d 1133, 1135 (2d Cir. 1984)
(“Where, as here, Article 78 gave the employee a
meaningful
opportunity
to
challenge
the
voluntariness of his resignation, he was not deprived
of due process simply because he failed to avail
himself of the opportunity.”); Cole-Hatchard v.
Hoehmann for Town of Clarkstown, New York, No.
16 Civ. 5900, 2017 WL 4155409, at *7 (S.D.N.Y.
Sept. 18, 2017) (“An Article 78 proceeding adequately
serves as a post-deprivation name-clearing hearing.
Plaintiff’s failure to avail himself of this proceeding
means he was not denied due process.”).
Plaintiff argues that the availability of an Article
78 proceeding does not foreclose the present action,
relying on cases that hold that post-deprivation
remedies are insufficient where the due process
violation “was pursuant to a statute, code,
regulation, or custom, or made by a final
decisionmaker,” rather than “random acts.” Chase
Grp. All. LLC v. City of New York Dep’t of Fin., 620
F.3d 146, 152 n.3 (2d Cir. 2010) (internal citations

B-15
and quotations omitted). Plaintiff argues that “[t]he
City’s entry into the Consent Decree was not a
random act, but the implementation of City policy -indeed the whole point behind entry into the Consent
Decree was to alter City and DOT Policy. It could not
be addressed by an Article 78 petition.”
This argument fails because these exceptions to
the sufficiency of post-deprivation Article 78
hearings do not apply to “stigma-plus” claims.
Although “[d]octrine in this Circuit has oscillated
between requiring post-deprivation and predeprivation hearings in stigma-plus cases,” Spang v.
Katonah-Lewisboro Union Free Sch. Dist., 626 F.
Supp. 2d 389, 397 (S.D.N.Y. 2009), the Second
Circuit acknowledged and resolved that ambiguity in
Segal: “We now hold that, in this case involving an
at-will government employee, the availability of an
adequate, reasonably prompt, post-termination
name-clearing hearing is sufficient to defeat a
stigma-plus claim . . . .” 459 F.3d at 214; accord
Hughes v. City of New York, 680 F. App’x 8, 10 (2d
Cir. 2017) (summary order).
Because it is principally the “plaintiff’s
reputational interest . . . that is at issue” in a
“stigma-plus” claim, “[t]he appropriate remedy for a
stigma-plus claim . . . is a post-deprivation nameclearing hearing.” Patterson, 370 F.3d at 336. The
Second Circuit has repeatedly upheld the use of
Article 78 “name-clearing” hearings for “stigma-plus”
claims -- even when the facts appear to fit one of the
exceptions. See, e.g., Anemone, 629 F.3d at 121
(affirming the dismissal of a “stigma-plus” claim
because a post-deprivation Article 78 hearing
provided sufficient process to a plaintiff fired by the
Executive Director of the MTA); Hughes, 680 F.

B-16
App’x at 10 (dismissing a “stigma-plus” claim
because of the availability of a post-deprivation
Article 78 hearing where the DOE Chancellor had
instructed that the plaintiff be removed). Any
damage to Plaintiff’s reputation was addressable in
an Article 78 proceeding; damaged reputations are
precisely the harm that a “name-clearing” hearing
under Article 78 is designed to address. Anemone,
629 F.3d at 121; see also Gallagher v. New York City
Health & Hosps. Corp., No. 17 Civ. 2942, 2018 WL
2049114, at *2 (2d Cir. May 2, 2018) (summary
order) (“Gallagher does not plead that she did not
have the opportunity to clear her name in an Article
78 proceeding, and we have no other reason to
believe that she would be denied this avenue.”).
Accordingly, the Complaint’s due process claim is
dismissed for this additional reason.
C. First Amendment Retaliation
The Complaint alleges a second cause of action,
that Defendants took “disciplinary/retaliatory action
against [Plaintiff] for talking to fellow employees
about matters of public concern,” specifically the
issuance by the DOT of the Notice of Complaint
recounting the receipt of a complaint about Plaintiff’s
alleged unlawful retaliation against DOT employees
who were claimants in the Title VII Complaint. The
claim is dismissed because the Complaint does not
allege facts sufficient to show that Plaintiff’s speech
was protected by the First Amendment.
“[T]he First Amendment protection of a public
employee’s speech depends on a careful balance
between the interests of the employee, as a citizen, in
commenting upon matters of public concern and the
interest of the State, as an employer, in promoting

B-17
the efficiency of the public services it performs
through its employees.” Lane v. Franks, 134 S. Ct.
2369, 2374 (2014) (citations omitted). “Where, as
here, a plaintiff claims that he or she was retaliated
against in violation of the First Amendment, he or
she must plausibly allege that (1) his or her speech
or conduct was protected by the First Amendment;
(2) the defendant took an adverse action against him
or her; and (3) there was a causal connection
between this adverse action and the protected
speech.” Montero v. City of Yonkers, New York, 890
F.3d 386, 394 (2d Cir. 2018) (citations omitted).
Here, the Complaint fails to state the first element
of a prima facie First Amendment retaliation claim
with respect to the EEO investigation that stemmed
from Plaintiff’s visit to Flatlands Yard. 2 “A court
conducts a two-step inquiry to determine whether a
public employee’s speech is protected: The first
requires determining whether the employee spoke as
a citizen on a matter of public concern.” Matthews v.
City of New York, 779 F.3d 167, 172 (2d Cir. 2015)
(citation omitted); accord Kiernan v. Town of
Southampton, No. 17-212, 2018 WL 2251633, at *2
(2d Cir. May 17, 2018) (summary order). The first
step contains two sub-questions: “(1) whether the
subject of the employee’s speech was a matter of
public concern and (2) whether the employee spoke
‘as a citizen’ rather than solely as an employee.”
Matthews, 779 F.3d at 172. If the answer to either
The Demotion cannot constitute an adverse employment
action for the purpose of the Complaint’s First Amendment
retaliation claim, because Plaintiff was demoted almost a full
year before his visit to Flatlands Yard. Accordingly, Plaintiff’s
speech at Flatlands Yard cannot have caused the Demotion.

2

B-18
sub-question is no, then the employee was not
speaking as a citizen on a matter of public concern,
and their speech is not protected. Id. “If, however,
both questions are answered in the affirmative, the
court then proceeds to the second step of the inquiry,
commonly referred to as the Pickering analysis:
whether the relevant government entity had an
adequate justification for treating the employee
differently from any other member of the public
based on the government’s needs as an employer.”
Id. Here, the speech identified in the Complaint fails
at both steps of the First Amendment protection
analysis.
1.

“Public Concern”

“Whether speech is on a matter of public concern is
a question of law, and is to be answered by the court
after examining the content, form, and context of a
given statement, as revealed by the whole record.”
Montero, 890 F.3d at 399. “While this determination
may be somewhat fact-intensive, it presents a
question of law for the court to resolve.” Johnson v.
Ganim, 342 F.3d 105, 112 (2d Cir. 2003); accord
Harris v. Bd. of Educ. of the City Sch. Dist. of the
City of New York, 230 F. Supp. 3d 88, 98 (E.D.N.Y.
2017). Accordingly, in order to state a plausible
retaliation claim, a complaint must identify the
content of the speech that is protected so that it is
possible to engage in the required “fact-intensive”
inquiry. See, e.g., Ortiz v. Russo, No. 13 Civ. 5317,
2015 WL 1427247, at *11 (S.D.N.Y. Mar. 27, 2015)
(dismissing a retaliation claim because “Plaintiff
fails to specifically identify the speech or conduct at
issue which he purports to be protected.”).

B-19
The Complaint contains one paragraph about what
Plaintiff discussed with his coworkers:
All discussions Mr. Paterno had with coworkers
about the Consent Decree, by its very nature,
including denial of the City’s “admissions” in the
Complaint that touched his conduct, or asking
other employees for their views, involved a
matter of public importance, i.e., discriminatory
conduct at DOT, and his involvement in it.
The Notice of Informal Conference, which is attached
to the Complaint, provides further detail. Plaintiff
went to Flatlands Yard on June 16, 2017, while on a
leave of absence, and having no official business at
the facility; he questioned subordinate minority
employees about their participation in the Consent
Decree; he asked whether they had testified against
him and discussed with two of them (who are named)
the specific Consent Decree reward each had
received. The Complaint also states that “[t]here was
no allegation of any threatening or retaliatory action
taken against any individuals in the Notice.”
However, this description of what Plaintiff did not
say at Flatlands Yard does not elucidate what
Plaintiff said.
These subjects that Plaintiff discussed with his coworkers are not matters of public concern. “To
constitute speech on a matter of public concern, an
employee’s expression must be fairly considered as
relating to any matter of political, social, or other
concern to the community.” Montero, 890 F.3d at
399. “[S]peech that principally focuses on an issue
that is personal in nature and generally related to
the speaker’s own situation, or that is calculated to
redress personal grievances -- even if touching on a

B-20
matter of general importance -- does not qualify for
First Amendment protection.” Id. at 399-400. “[A]
public employee may not transform a personal
grievance into a matter of public concern by invoking
a supposed popular interest in the way public
institutions are run.” Id. at 400. “The heart of the
matter is whether the employee’s speech was
calculated to redress personal grievances or whether
it had a broader public purpose.” Ruotolo v. City of
New York, 514 F.3d 184, 189 (2d Cir. 2008) (internal
quotation marks omitted); accord Majied v. New
York City Dep’t of Educ., No. 16 Civ. 5731, 2018 WL
333519, at *4 (S.D.N.Y. Jan. 8, 2018).
Here, Plaintiff’s discussions with his co-workers
principally focused on his personal grievances -- not
on matters of public concern. Plaintiff went to
Flatlands Yard without any official reason to be
there, suggesting a personal motivation. Plaintiff
asked subordinate minority employees whether they
had testified against him with respect to the Title
VII Complaint, and informed two of the employees
that he knew how much money they had been
awarded as a result of the Consent Decree. Any
tangential discussion of broader “discriminatory
conduct at DOT” unrelated to Plaintiff -- which the
Complaint does not describe -- was secondary to
discussion of Plaintiff’s involvement. Accordingly,
Plaintiff’s speech was not protected, because he did
not speak “as a citizen on a matter of public concern.”
Matthews, 779 F.3d at 172.
2.

Pickering Analysis

Even if the speech identified in the Complaint
were on a “matter of public concern,” it nevertheless
would not trigger First Amendment protection,

B-21
because the City “had an adequate justification for
treating the employee differently from any other
member of the public based on the government’s
needs as an employer.” Matthews, 779 F.3d at 172.
“The problem in any case is to arrive at a balance
between the interests of the employee, as a citizen, in
commenting upon matters of public concern and the
interest of the State, as an employer, in promoting
the efficiency of the public services it performs
through its employees.” Id. (citations and alterations
omitted). A government entity may avoid liability for
First Amendment retaliation if it can: “(1)
demonstrate by a preponderance of the evidence that
it would have taken the same adverse action
regardless of the protected speech, or (2) show that
the plaintiff’s expression was likely to disrupt the
government’s activities, and that the likely
disruption was sufficient to outweigh the value of the
plaintiff’s First Amendment expression.” Cobb v.
Pozzi, 363 F.3d 89, 102 (2d Cir. 2004); accord
Agyeman v. Roosevelt Union Free Sch. Dist., 254 F.
Supp. 3d 524, 533 (E.D.N.Y. 2017).
Here, Plaintiff’s speech was disruptive. Plaintiff
went to Flatlands Yard without any official reason
while on administrative leave. Plaintiff engaged
minority subordinate employees in conversations
about whether they testified against him, and how
much money they received as a result of the Consent
Decree. That speech motivated the subordinate
minority employees to file a complaint with the EEO.
Plaintiff’s speech, all of which occurred in the
workplace, was more likely to cause an immediate
disruption than speech that occurs outside of the
workplace, which numerous courts have determined
to be punishable under the Pickering balancing test.
See, e.g., Lynch v. Ackley, 811 F.3d 569, 580 (2d Cir.

B-22
2016) (finding that a public employee’s criticism of a
supervisor at a union meeting was likely to be
disruptive); Heller v. Bedford Cent. Sch. Dist., 144 F.
Supp. 3d 596, 619 (S.D.N.Y. 2015) (finding that a
teacher could be punished for speech in an online
chatroom, because it would have been disruptive “if
his activities had become widely known while
plaintiff was still employed as a teacher”). The City’s
interest in maintaining an orderly work environment
at the DOT outweighs any First Amendment interest
Plaintiff had. Accordingly, even if Plaintiff’s speech
was “on a matter of public concern,” the EEO
investigation was justified by the City’s “needs as an
employer,” and the Complaint is dismissed.
Matthews, 779 F.3d at 172.
IV. CONCLUSION
For the foregoing reasons, Defendants’ motion is
GRANTED. The Clerk of Court is respectfully
directed to close this motion at Docket No. 24, and to
terminate the case.
Dated: July 31, 2018
New York, NY
/s/ Lorna G. Schofield
/s/ Lorna G. Schofield
United States District Judge

C-1
Appendix C Amended Complaint, Filed April 30, 2018
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
17 Civ. 8278
AMENDED COMPLAINT AND
DEMAND FOR JURY TRIAL
————————————————————
JOHN PATERNO,
-against-

Plaintiff,

CITY OF NEW YORK (NEW YORK CITY
DEPARTMENT OF TRANSPORTATION),
and POLLY TROTTENBERG,
Defendants.
————————————————————
Plaintiff, by his attorneys below signed, alleges as
follows:
INTRODUCTION
1. This is a civil rights lawsuit seeking injunctive
relief, lost wages (including overtime), and
compensatory emotional distress damages. Plaintiff
John Paterno is employed by the New York City
Department of Transportation. On June 17, 2016,
Plaintiff was inexplicably transferred to a position
that diminished his job advancement prospects and
earning potential — he lost approximately $60,000 in
annual compensation as a direct consequence of the
transfer; the transfer was effectively a demotion. The

C-2
Defendants have since admitted that the demotion
was carried out in response to allegations of racial
discrimination directed at Plaintiff and that
appeared in a Federal Lawsuit that was filed in
January of 2017 by the United States Government.
Those allegations were false. Instead of doing an
appropriate investigation, which would have
involved discussing those allegations with Plaintiff
and contesting them when they appeared in the
lawsuit, the City settled, without speaking to
Plaintiff, and entered into a Consent Decree, which
admitted most of the allegations against Plaintiff.
Though the Consent Decree did not mention Plaintiff
by name (it called him “Executive Director II”), his
identity was thinly veiled. Reports about the Decree
in local media identified Plaintiff as the principal
wrongdoer almost immediately. When asked about
the Consent Decree by the press, the City made
public Plaintiff’s demotion and decrease in pay,
which the City described as the remedy for his
transgressions. Defendants subsequently threatened
to retaliate against Plaintiff for openly discussing the
Consent Decree with other employees, even though
Plaintiff has no legal obligation to keep silent about
the allegations in the Decree or the DOJ Complaint,
and then sought his termination even after he filed
papers to retire.
2. The public spectacle that the Defendants
indulged in had the effect of casting Plaintiff as a
longtime racist manager, embarrassing him,
branding him, diminishing his current and future
earning potential, and obliterating his opportunities
for alternative employment, much less advancement
in his field of employment. As discussed, supra, this
was done without affording Plaintiff the opportunity
to confront the allegations against him and clear his

C-3
name before the City publicly admitted and
confirmed the allegations of racially discriminatory
actions and before punitive action was taken. This is
a violation of Plaintiff’s Constitutional Liberty
interest and is prohibited by the Fifth and
Fourteenth Amendments to the United States
Constitution. Plaintiff accordingly seeks redress —
lost pay and damages addressed to the emotional toll
this episode has taken on his life.
JURISDICTION
3. This Court’s jurisdiction is invoked pursuant to
28 U.S.C. § 1331 and 42 U.S.C. § 1983.
PARTIES
4. John Paterno is a U.S. citizen, and at all
relevant times was an employee of the New York
City Department of Transportation. He resides in
Staten Island, New York.
5. Defendant City of New York (the “City”) is a
Municipal Corporation existing by virtue of the New
York State General Municipal Law. The New York
City Department of Transportation (“DOT”) is an
agency of the City which addresses most of the City’s
non-bus and subway transportation issues, largely
having to do with the condition of roads and bridges.
6. Defendant Polly Trottenberg, at all relevant
times, was DOT Commissioner and is sued
individually, for actions she took described below,
under color of her authority as Commissioner, but in
abuse of that position.

C-4
FACTS SUPPORTING ALL CLAIMS
7. On January 18, 2017, the United States sued
the City and DOT in a Title VII Civil Rights Act
lawsuit alleging a pattern and practice of
discrimination and retaliation based on the failure to
promote minority employees working at DOT. A copy
of the Complaint, dated January 18, 2017
(“Complaint”), is attached herein as Exhibit A.
8. The Complaint alleged that the race-based
discrimination took place at Fleet Services, a
subdivision of the Roadway Repair and Maintenance
Division (“RRM”) of DOT.
9. The Complaint identifies two individuals as the
main perpetrators of the discrimination at RRM:
Executive Director I (“ED I”) and Executive Director
II (“ED II”).
10. From factual allegations regarding the job
responsibilities of ED I and ED II and the tenure of
service of ED I and ED II identified in the
Complaint, these individuals are easily identifiable
as an employee named Darren Kaplan (“ED I”) and
Plaintiff John Paterno (“ED II”).
11. Among other allegations, the Complaint
falsely alleges that Plaintiff John Paterno:
(a)
Actively
aided
and
carried
out
discriminatory staffing practices directed by Darren
Kaplan (something he denies).
(b) Failed to confirm Darren Kaplan’s use of
racial epithets on the job when confronted by EEO at
an initial interview during a DOT EEO investigation
of Mr. Kaplan. (While Mr. Paterno was never
confronted with any such question at his initial

C-5
interview, his subsequent testimony was one of the
pillars underlying DOT EEO’s successful case
against Mr. Kaplan.)
(c) Continued race-based hiring practices once
Mr. Kaplan left. Almost every “example” proffered in
the Complaint to support this point was carried out
for non-race-related reasons and was carried out at
the direction of DOT management and/or with the
imprimatur of upper management at DOT.
12. These allegations were directed at Mr.
Paterno by the U.S. Attorney for the Southern
District of New York, without one interview of
Plaintiff or other relevant DOT employees by the
U.S. Attorney, DOT staff, or New York Corporation
Counsel before the Complaint was filed.
13. Had the City actually investigated the U.S.
Attorney’s Complaint, the case against the City
arising from Mr. Paterno’s purported conduct would
likely have been disproven.
14. Indeed, the Complaint is replete with specific
allegations against Mr. Paterno that would have
crumbled if Mr. Paterno had been allowed the
opportunity to defend himself.
For example:
(a) In paragraphs 28 and 29 of the Complaint,
the United States alleges that Mr. Paterno discussed
with and urged Supervisor I (upon information and
belief, a Mr. Brian Connolly) to remove Mechanic I
(upon information and belief, a Mr. Oliver Redman
III) from his position. Instead, it was actually Mr.
Paterno who prevented Mr. Kaplan from removing
Mr. Redman.

C-6
(b) The Complaint goes on to state in paragraph
33 that Mr. Connolly refused to comply with an order
from Mr. Kaplan to remove Mr. Redman’s computer
from his workspace. The person who refused to
comply with the order, and who counseled against it,
was Mr. Paterno. Moreover, the Complaint (at
paragraph 35) alleges that Mr. Paterno ordered the
removal of Mr. Redman’s phone, when, in actuality,
it was Mr. Kaplan who gave this directive.
(c) The Complaint’s recitation of the details of
Mr. Paterno’s interviews with DOT EEO regarding
Mr. Kaplan are replete with errors which cast
aspersions on Mr. Paterno’s character. In paragraph
47, the United States alleges that Mr. Paterno
denied ever hearing Mr. Kaplan ever using racial
epithets when confronted about it in his first
interview. Mr. Paterno was never asked such a
question in his first interview with DOT EEO.
(d) The Complaint states, in paragraph 48, that
Mr. Paterno later recanted his testimony. He did no
such thing; he did supplement his testimony after
being approached by EEO on a second occasion and
learning that Mr. Kaplan had projected his own
discriminatory conduct onto the shoulders of Mr.
Paterno.
(e) The Complaint alleges in paragraph 53 that
Mr. Paterno promoted a culture of fear and
intimidation and, in paragraph 54, that he
systematically excluded minorities from preferred
assignments and special projects. In fact, Mr.
Paterno helped numerous minority employees (such
as Eugen McNeil, John Matthews Jr., and Colvert
Dwyer) keep pay grades they would otherwise have
lost, and helped transition minority employees into

C-7
preferred assignments (such as Seupersand Bharat,
Luis Ramirez, and others).
(f) The Complaint alleges in paragraph 55 that
Mr. Paterno hand-picked white candidates to fill
preferred assignments that lead to supervisory
positions that opened up during his tenure as
Executive Director, rather than have an open process
that involved consultation. This is false; every single
alleged preferred assignment and/or supervisory
position that was filled under Mr. Paterno’s tenure
was filled after consultation with a committee and/or
direction and/or approval from Mr. Paterno’s
superiors. If minorities were underrepresented in the
ranks of those who were selected to fill supervisory
openings, it was the consequence of policies and
procedures promulgated by higher-ups at DOT and
not Mr. Paterno.
(g) The Complaint, in paragraphs 56 through
63, alleges that Mr. Paterno conspired to have
Seupersaud Bharat replaced as the assistant
supervisor to Supervisor II, a Mr. Robert Conca, in
2009. These paragraphs are completely false. Mr.
Bharat never served as an “Assistant Supervisor” to
Mr. Conca. Mr. Paterno transferred Mechanic II
(upon information and belief a Mr. Michael Moliero)
to provide more supervisory help to Mr. Conca
following Mr. Conca’s direct request. Moreover, after
Mr. Moliero was transferred, Mr. Paterno was
instrumental in helping to keep Mr. Bharat
employed, performing the administrative tasks he
was performing for Mr. Conca. In mid-2010 (after
training under Mr. Moliero), Mr. Bharat was given
greater supervisory tasks under Mr. Conca.

C-8
(h) An even greater falsehood is the
Complaint’s recitation in paragraphs 64 through 77
that involved what it calls the Biodiesel Retrofit
Program, or BRP. No such program ever existed
during Mr. Paterno’s tenure as Executive Director.
(i) Paragraphs 78 through 123 of the Complaint
lay at the feet of Mr. Paterno the purported exclusion
of minorities from consideration for or promotion into
SOMME title vacancies. As stated before, every
single supervisory position, including provisional and
permanent SOMME title promotions, that were filled
under Mr. Paterno’s tenure, were filled after
consultation
with
a
committee
and/or
recommendation from Mr. Paterno, and the approval
from
his
superiors.
If
minorities
were
underrepresented in the ranks of those who were
selected to fill supervisory openings, it was the
consequence of policies and procedures promulgated
and enforced by DOT, not Mr. Paterno.
(j) Likewise, paragraphs 129 through 136 of the
Complaint, which discuss a series of threats that
were allegedly made by Mr. Paterno against Donald
Prophete (identified in the Complaint as “Blacksmith
I”), are completely false.
15. Instead of contesting any of these allegations,
the City and DOT, with the approval of Defendant
Trottenberg, entered into a Consent Decree, dated
June 13, 2017, and admitted to the entirety of the
allegations in the Complaint, including demonstrably
false allegations that were directed at Mr. Paterno
and incorporated into the Consent Decree. A copy of
the Consent Decree is attached herein as Exhibit B.

C-9
16. The Consent Decree reiterated and even
embellished many of the allegations in the
Complaint directed at Mr. Paterno.
17. As with the Complaint, all allegations
concerning discriminatory/retaliatory conduct on the
part of Mr. Paterno were false.
18. By entering into the Consent Decree, the City
and DOT joined the United States in making false,
damaging accusations directed at Mr. Paterno.
19. Mr. Paterno was never questioned by the
Defendants about the critical allegations in the
Complaint before the Consent Decree was signed and
published.
20. When the Consent Decree was filed it was
widely reported by the press, which was able to
easily identify Mr. Paterno as Executive Director II.
See, for example, Exhibits C and D.
21. The publication of the Consent Decree had the
effect of casting Mr. Paterno as a racist villain at
DOT who needed to be purged. Editorials calling for
punitive action against Mr. Paterno were published
in the press, and at least one New York City Council
member publicly called for his immediate removal
from any employment with the City. See Exhibit E.
22. In fact, the City had already punished
Plaintiff. On June 16, 2016, Plaintiff was transferred
to a new, lesser position (the “June 2016 Demotion”),
without (at the time) any explanation, with a loss in
pay of around $60,000 per year.
23. The basis for this Demotion was the false
allegations of discriminatory conduct that formed the
basis for the Consent Decree, that had been adopted

C-10
around DOT without affording Plaintiff the
opportunity to rebut them, and that now carried the
imprimatur of a Consent Decree.
24. When confronted by editorial writers in the
press with fallout from the Consent Decree,
Defendant Trottenberg wrote in a letter to The Chief,
a widely circulated public employee newspaper
[ ] that DOT had been proactive and that “[sic]
before the agency even entered into its consent
decree with the Department of Justice, it had
undertaken “aggressive” action, including in
2015 and 2016, “dramatically” restructuring
senior leadership within both the Fleet and
Equal Employment Opportunity units “to
address
the
concerns
raised
by
the
complainants.” A previous Executive Director of
Fleet Services who engaged in racist practices
was simultaneously working with the EEO unit
before he was forced to retire eight years ago.
-DOT added four additional EEO staff members
in September 2016, and promoted three minority
candidates to the Supervisor of Mechanics
Mechanical Equipment title. In July 2016, Ms.
Trottenberg wrote, “DOT removed John Paterno,
the main subject of the investigation, from his
position, reassigning him to a position without
supervisory responsibility and no role in hiring
or promotions.” His compensation dropped from
$197,000 in 2015 to $163,000 last year.
25. A copy of the article, dated July 30, 2017,
in which this statement appears is annexed as
Exhibit D.

C-11
26. The statements made by Trottenberg were
outrageous. In fact, the three promotions of minority
individuals that are cited as “corrective action” were
carried out at the behest and direction of Mr.
Paterno.
27. The Trottenberg letter is an admission that
the June 2016 Demotion was carried out to remedy
the purported conduct outlined in the Complaint and
Consent Decree.
28. It is also clear from this admission that the
June 2016 Demotion was punitive in nature and an
effective demotion that deprived Plaintiff of
compensation.
29. Moreover, by directly linking the June 2016
Demotion to the Complaint and Consent Decree, the
Defendants reiterated their support for the
outrageously false allegations contained in the
Complaint and Consent Decree.
30. The June 2016 Demotion was carried out
without giving Mr. Paterno recourse to any process
through which he could have cleared his name or
appealed what was being done to him.
31. On or around June 26, 2017, shortly after the
first articles about the Consent Decree appeared in
the local press, Mr. Paterno was served with a Notice
of Complaint which alleged that Mr. Paterno had
been accused of “retaliation.” The Complaint stated,
in part:
[I]t is alleged that you appeared at Flatlands
Yard on June 16, 2017 and spoke to DOT
employees regarding the consent decree
executed in USA v. City of New York, including

C-12
speaking with individuals who are identified as
claimants in that action.
32. There was no allegation of any threatening or
retaliatory action taken against any individuals in
the Notice. A copy of the Notice is attached herein as
Exhibit F.
33. All discussions Mr. Paterno had with
coworkers about the Consent Decree, by its very
nature, including denial of the City’s “admissions” in
the Complaint that touched his conduct, or asking
other employees for their views, involved a matter of
public importance, i.e., discriminatory conduct at
DOT, and his involvement in it.
34. On or around September 15, 2017, Mr.
Paterno received correspondence from DOT that
stated “EEO has concluded its investigation of the
above referenced complaint [EEO Complaint 8412017-00021] filed alleging discrimination on the
basis of retaliation … DOT finds the allegations were
substantiated against you.” See Exhibit G.
35. The September Letter goes on to name
“corrective measures” to be taken, including but not
limited to “appropriate and applicable” disciplinary
proceedings. Id.
36. The September Letter was issued shortly
after Mr. Paterno’s attorney provided a statement to
the press contesting the allegations of discrimination
directed against Mr. Paterno in the Consent Decree.
A copy of the article in which this statement was
reported is attached herein as Exhibit H. A copy of
counsel’s letter is annexed as Exhibit I.

C-13
37. Defendants announced an intention to punish
Mr. Paterno, not for taking any adverse action
against his subordinates, or threatening them, but
for voicing his opinions about a matter of public
concern, the Consent Decree, in and outside the
workplace.
38. Mr. Paterno is set to retire effective sometime
on or around May 15, 2018.
39. Despite his retirement, Defendants, in a
subsequent notice outlining the specific charges
against Plaintiff, stated that Mr. Paterno was not
being disciplined for threatening his subordinates
but for purportedly questioning co-workers about the
Consent Decree and disclosing the details of Specific
Consent decree award(s). A copy of the Notice of
Informal Conference, dated January 30, 2018, which
includes formal charges, is annexed as Exhibit L.
40. The allegations in the charges are not
violations of New York City’s Equal Employment
Opportunity policy.
41. Plaintiff incorporates by reference all
pleadings in paragraphs 1 through 36 into the
Causes of Action listed below.
AS AND FOR A FIRST CAUSE OF ACTION
42. The June 2016 Demotion was carried out on
erroneous allegations of racially discriminatory
conduct on the part of the Plaintiff.
43. The June 2016 Demotion of Plaintiff caused
severe and permanent injury to his reputation.

C-14
44. Those erroneous allegations of racially
discriminatory conduct have since been widely
published, as a result of efforts undertaken by
Defendants.
45. The Defendants have confirmed that the
demotion of Plaintiff, and his concomitant loss of
pay, was carried out in response to these erroneous
allegations of discriminatory conduct.
46. Plaintiff has never been afforded the
opportunity to rebut or even argue the erroneous
allegations of discriminatory conduct in front of a
City investigatory official, much less a neutral
arbiter.
47. The demotion of Plaintiff, with the
Defendants’ stated endorsement of the erroneous
allegations which precipitated the City’s transfer of
Plaintiff, limited and in fact eviscerated his
opportunities for advancement within the DOT,
already diminished his earned income by
approximately $60,000 per year, and imperils all
future job prospects, within or outside the DOT.
48. By transferring and demoting Plaintiff in a
manner that causes injury to his reputation, limiting
his current and future earning opportunities, and
denying him a venue to clear his name, Defendants
violated Plaintiff’s rights to due process under the
Fifth and Fourteenth Amendments to the U.S.
Constitution.
AS AND FOR A SECOND CAUSE OF ACTION
49. By taking disciplinary/retaliatory action
against Mr. Paterno for talking to fellow employees
about matters of public concern within and outside
the workplace, Defendants, individually and in

C-15
concert, under the color of state law, Defendants
violated Plaintiff’s First Amendment rights under
the U.S. Constitution.
INJURY
50. The agreement to and publication of the
Consent Decree and the City’s subsequent press
statements caused Plaintiff irreparable injury to his
reputation.
51. The aforestated violation of Plaintiff’s rights
proximately caused Plaintiff:
a. to lose compensation of $60,000 per year
(approximately $90,000 from June 2016 to the
present);
b. to lose further opportunities to advance or to
earn more or similar money elsewhere; and
c. to suffer emotional distress, with attendant
physical symptoms, to his injury in a sum of
$1,000,000, injury which is likely to bring about his
departure from his City employment.
PRAYER FOR RELIEF
WHEREFORE, Plaintiff prays that this Court
enter preliminary and permanent injunctive relief,
and enter judgment:
1. Awarding Plaintiff full compensation for lost
wages and future employment opportunities.
2. Awarding Plaintiff $1,000,000 in damages for
emotional distress.
3. Awarding Plaintiff attorneys’ fees, costs, and
disbursements.

C-16
4. Granting such other and further relief as is
just and equitable.
JURY DEMAND
Plaintiff demands a jury trial.
Dated: New York, New York
April 30, 2018
ADVOCATES FOR JUSTICE,
CHARTERED ATTORNEYS
Attorneys for Plaintiff
By: /s/

Arthur Z. Schwartz
Richard Soto
225 Broadway, Suite 1902
New York, New York 10007
(212) 285-1400

C-17
Exhibit A to Amended Complaint Complaint, Filed January 18, 2017
PREET BHARARA
United States Attorney for the
Southern District of New York
By: JESSICA JEAN HU
Assistant United States Attorney
86 Chambers Street
New York, New York 10007
Telephone: (212) 637-2726
Fax: (212) 637-2717
E-mail: jessica.hu@usdoj.gov
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
17 Civ. 0364
COMPLAINT
————————————————————
UNITED STATES OF AMERICA,
v.

Plaintiff,

CITY OF NEW YORK, NEW YORK CITY
DEPARTMENT OF TRANSPORTATION,
Defendants.
————————————————————
Plaintiff the United States of America (the “United
States”), by and through its attorney, Preet Bharara,
United States Attorney for the Southern District of
New York, alleges upon information and belief as
follows:

C-18
INTRODUCTION
1. The United States brings this civil action to
enforce Title VII of the Civil Rights Act of 1964, 42
U.S.C. § 2000e et seq., as amended (“Title VII”). As
set forth more fully below, the United States alleges
in this action that Defendants the City of New York
(the “City”) and the New York City Department of
Transportation (the “NYCDOT”) have engaged in a
pattern or practice of racial discrimination and
retaliation based on the failure to promote minority
employees within the Fleet Services unit (“Fleet
Services”) of the Division of Roadway Repair and
Maintenance within NYCDOT.
JURISDICTION & VENUE
2. This Court has jurisdiction over this matter
under 42 U.S.C. § 2000e-6(b) and 28 U.S.C. §§ 1331
& 1345.
3. Under 28 U.S.C. § 1391(b), the Southern
District of New York is the proper venue for this
matter because Defendants are located in this
District.
PARTIES
4. Plaintiff is the United States of America.
5. Defendant the City of New York (the “City”) is
a person within the meaning of 42 U.S.C. § 2000e(a)
and an employer within the meaning of 42 U.S.C.
§ 2000e(b).
6. Defendant the NYCDOT is an agency of the
City, a person within the meaning of 42 U.S.C.
§ 2000e(a), and an employer or the agent of an
employer within the meaning of 42 U.S.C. § 2000e(b).

C-19
BACKGROUND
7. NYCDOT is the City agency charged with
maintaining and enhancing the transportation
infrastructure of New York City.
8. NYCDOT employs over 4,500 employees and
has an annual operating budget of $900 million.
9. Polly
Trottenberg
commissioner of NYCDOT.

is

currently

the

10. Commissioner Trottenberg was appointed on
December 31, 2013, and she replaced Commissioner
Janette Sadik-Khan, who held the position from
2007 until Commissioner Trottenberg’s appointment
at the end of 2013.
11. NYCDOT’ s operations are overseen by
members of its Executive Staff who report directly to
Commissioner Trottenberg and are each responsible
for one of NYCDOT’s divisions.
12. These divisions are: Bridges; Finance,
Contracting, and Program Management; Human
Resources and Facilities Management; IT & Telecom;
Roadway Repair and Maintenance (RRM); Sidewalks
and Inspection Management; Staten Island Ferry;
Traffic Operations; and Transportation Planning &
Management.
13. Fleet Services is a subdivision of RRM within
NYCDOT and is responsible for maintaining the fleet
of vehicles owned and operated by NYCDOT.
14. These vehicles include both heavy machinery,
such as pavers, cranes, and dump trucks, which the
NYCDOT utilizes in its roadway repair and
construction operations, as well as, lighter vehicles,

C-20
such as pickup trucks, agency passenger cars, and
even mopeds.
15. Fleet Services employs approximately 200
individuals in a range of trades, such as: machinists,
auto mechanics, electricians, blacksmiths, and
engineers.
16. The bulk of the positions within Fleet
Services, including supervisory positions, are
represented by a union, and these positions are also
subject to New York City’s civil service rules.
17. At all times relevant to the complaint, RRM
was overseen by a Deputy Commissioner (“Deputy
Commissioner of RRM”), who reported directly to the
Commissioner of NYCDOT.
18. As a subdivision of RRM, Fleet Services was
managed by an Executive Director (the “ED”), who
then reported directly to Deputy Commissioner of
RRM.
19. For all periods of time relevant to the
complaint, the Executive Directors of Fleet Services
were “Executive Director I” and “Executive Director
II.”

C-21
I.

Pattern or Practice of Discrimination
Under Executive Director I
A. Incident Involving Mechanic 1

20. In October 2007, Executive
assumed the position of ED.

Director

I

21. Executive Director I’s second-in-command
within Fleet Services was Executive Director II, 1 and
although Executive Director I held the title of ED,
the bulk of the day-to-day operations of Fleet
Services were overseen by Executive Director II.
22. Beginning in 2007, upon Executive Director
I’s assumption of the ED position, Executive Director
I requested that an African American auto mechanic,
“Mechanic 1,” who had been serving as an Assistant
Supervisor in NYCDOT’s Bronx garage operations
(the “Bronx Shop”), be removed from his office duties
and returned to mechanic duties.
23. The practice of an auto mechanic serving as
an “Assistant Supervisor” or “Acting Supervisor”
within a NYCDOT garage operation is widespread
throughout Fleet Services. Individuals serving in
this capacity do not have any difference in civil
service title from their peers who are only serving as
non-supervisory auto mechanics, and as such, they
receive the same compensation.

The Complaint refers to the individual who succeeded
Executive Director I in the ED position as “Executive Director
II.” This individual did not assume the ED title, however, until
Executive Director I left the agency in 2010.
1

C-22
24. Assistant Supervisors serve a distinct
operational function, however, and perform functions
that are not performed by other auto mechanics
within their assigned shop. These tasks include: the
assignment of tasks to other auto mechanics;
ordering parts from the NYCDOT system;
performing intake for vehicles coming into the shop;
working in the office; and serving as the supervisor
when the SOMME in charge of the shop is on leave
or otherwise away.
25. Because some of the tasks performed by the
Assistant Supervisor require computer access that
auto mechanics do not otherwise possess, or a
presence in the office (a location where line auto
mechanics do not otherwise generally go) the
Assistant Supervisor is easily recognized by his
peers, as well as others within NYCDOT as serving
in a distinct role.
26. In discussing with subordinates his request to
have Mechanic 1 removed from the Assistant
Manager position, Executive Director I stated that
Mechanic 1 “was forced down my throat by the two
monkeys who put him in the office and I want him
out!”
27. It was understood by those who heard these
comments that Executive Director I’s reference to
“monkeys,” was to Keith Howard and Leon Hayward,
who were Deputy Commissioners at the time, and
who were also African American.
28. At Executive Director I’s direction, Executive
Director II discussed relieving Mechanic 1 of his
responsibilities with “Supervisor I,” who was, at the
time, the supervisor in charge of the Bronx Shop.

C-23
29. Supervisor I refused to take the requested
action because he felt that Mechanic 1 was
performing well as an Assistant Supervisor and
believed there was no reason to remove him from his
responsibilities.
30. Following this initial refusal by Supervisor I,
Mechanic 1 continued to perform the same duties.
31. Several months later, however, Executive
Director I renewed his request that Mechanic 1 be
removed.
32. Shortly after Executive Director I renewed his
request, Executive Director II then attempted to
discuss the issue with Supervisor I a second time,
who again refused to comply with the order to
remove Mechanic 1 from his supervisory functions.
33. Following Supervisor I’s refusal to comply
with Executive Director II’s order, Executive
Director II then directed others to remove Mechanic
1’s computer from his work space such that Mechanic
1 would no longer have the ability to perform some of
the administrative functions of an Assistant
Supervisor.
34. In spite of these actions, however, Supervisor
I persisted in maintaining Mechanic 1 as his
Assistant Supervisor.
35. Accordingly, Executive Director II next
proceeded to have the phone lines which rang in the
office where Mechanic 1 had been sitting, redirected
to a different location.
36. Eventually, rather than continue to sit in his
office without access to either a phone or a computer,
Mechanic 1 chose to remove himself from the
Assistant Supervisor position.

C-24
37. Within a few months after having been
removed from his Assistant Supervisor duties,
Mechanic 1 requested a transfer to another location.
B. Incident Involving “Blacksmith 1”
38. In the summer of 2008, “Blacksmith 1,” an
African American blacksmith in Fleet Services,
requested a cell phone.
39. Blacksmith 1’s request was denied.
40. In November 2008, Blacksmith 1 became
aware that another cell phone had become available
and had been given to a white blacksmith with less
seniority.
41. When Executive Director I was reminded by
Executive Director II that Blacksmith 1 had
previously requested a cell phone, Executive Director
I responded “that nigger gets nothing.”
II. NYCDOT EEO Investigation of Executive
Director I (2009 – 2010)
42. On October 15, 2009, Blacksmith 1 filed a
complaint with NYCDOT’s Equal Employment
Opportunity Officer (“NYCDOT EEO”).
43. In his complaint, Blacksmith 1 referenced
both the 2007 incident involving Mechanic 1’s
removal as Assistant Supervisor in the Bronx Shop,
as well as his own experience in 2008 relating to his
cell phone request.
44. In response to Blacksmith 1’s complaint,
NYCDOT EEO conducted an investigation of
Executive Director I.

C-25
45. In the course of that investigation, NYCDOT
EEO interviewed numerous current NYCDOT
employees who stated that Executive Director I
routinely used racial epithets, such as “nigger,”
“monkey,” and “gorilla,” to refer to African American
employees.
46. Executive Director I was reported to have
made these statements in the presence of Executive
Director II and other senior management of Fleet
Services, and none of these individuals ever took any
action to report the statements.
47. Indeed, upon first being questioned by
NYCDOT EEO, Executive Director II denied ever
hearing Executive Director I use a racial epithet to
describe African Americans.
48. Executive Director II later recanted, but only
after he became aware that Executive Director I had
stated that Executive Director II was in fact
responsible for the actions taken against both
Mechanic 1 and Blacksmith 1.
49. Following its investigation, NYCDOT EEO
recommended that Executive Director I be demoted,
suspended, and removed from his responsibilities as
a NYCDOT EEO counselor. 2
50. Commissioner Sadik-Khan approved these
recommendations on January 18, 2010.
51. Following the decision of
Sadik-Khan, Executive Director
voluntarily retire.

Commissioner
I chose to

As part of his duties, Executive Director I also served as an
EEO counselor for Fleet Services.

2

C-26
52. Upon Executive Director I’s retirement,
Deputy Commissioner of RRM promoted Executive
Director II to ED.
III. Discrimination Under Executive Director
II (2010 – 2016)
A. Exclusion of Minorities from Preferred
Assignments
53. The culture of fear and intimidation that
predominated during Executive Director I’s tenure as
ED persisted under Executive Director II’s
leadership.
54. Throughout his tenure as ED, Executive
Director II routinely and systematically excluded
minorities from preferred assignments and special
projects within Fleet Services.
55. Rather than engage in an open application
process, or consult with a committee of supervisors
who could provide objective feedback on employees’
performance, Executive Director II handpicked white
candidates for those assignments that provided the
best opportunity for further advancement within
Fleet Services. Executive Director II then promoted
those same white candidates based on the experience
they gained during those assignments. Because
Executive Director II consistently picked only white
candidates for these assignments, minority
candidates were and continue to be excluded from
promotional opportunities.
56. One example of this discriminatory practice is
Executive Director II’s decision to move “Mechanic
2,” an auto mechanic who had been working as a
parts coordinator at a NYCDOT facility in Brooklyn,

C-27
to NYCDOT’s facility at 158th Street in Manhattan
(the “Manhattan Shop”) in May 2009.
57. Upon moving Mechanic 2, Executive Director
I directed the supervisor at the Manhattan Shop at
the time, Supervisor II, to install Mechanic 2 as his
Assistant Supervisor and second-in-command.
58. At the time, however, another individual,
Seupersaud Bharat (“Bharat”), a minority auto
mechanic of East Indian descent, was already acting
as the Assistant Supervisor in the Manhattan Shop.
59. Supervisor II had selected Bharat for this role
because he excelled as a mechanic and was “far and
away” superior to the other mechanics in the
Manhattan Shop with respect to his skills at fixing
vehicles. In addition, Bharat had foreman experience
from previously working at Saturn Automotive.
60. As part of his duties as the Assistant
Supervisor, Bharat served as the shop supervisor in
Supervisor II’s absence, including for the cumulative
three month period in which Supervisor II was out of
the office either on leave or attending meetings
elsewhere for NYCDOT.
61. Because he was fully satisfied with Bharat’ s
performance as an Assistant Supervisor, Supervisor
II had no desire to replace Bharat with Mechanic 2.
Moreover, Supervisor II did not personally believe
the addition of Mechanic 2 was necessary.
62. Executive Director II directed Supervisor II to
have Mechanic 2 work in the office in the Manhattan
Shop, and upon this instruction, Supervisor II
relieved Mechanic 2 of his previously assigned
duties.

C-28
63. Executive Director II never consulted with
Supervisor II regarding his decision to replace
Mechanic 2 and never informed Supervisor II of the
reason for this change.
64. Another example of Executive Director II’s
discriminating against minorities in the distribution
of desirable and high profile assignments within
Fleet Services was his management of the Biodiesel
Retrofit Program (“BRP”), a project to retrofit certain
of Fleet Services machinery to biodiesel fuel.
65. NYCDOT undertook the BRP at some time in
2009 or 2010.
66. As a high profile agency initiative that would
provide exposure to NYCDOT leadership and the
opportunity to demonstrate suitability for promotion,
the BRP was considered by many auto mechanics
within Fleet Services to be a desirable assignment.
67. Following his transfer in May 2010 to Harper
Street, Mechanic 2 was assigned by Executive
Director II to lead the BRP.
68. Executive Director II then sought to assign
two additional employees, in addition to Mechanic 2,
to the BRP project.
69. Rather than competitively select for these
positions, however, Executive Director II took steps
to ensure that the positions would be given to
“Mechanic 3” and “Mechanic 4,” two white auto
mechanics who also worked at the Manhattan Shop
with Bharat.
70. In contrast to other auto mechanics within
Fleet Services who had decades of experience in
repairing vehicles, Mechanic 3 and Mechanic 4 were

C-29
both fairly inexperienced. Both Mechanic 3 and
Mechanic 4 had only been working in automotive
services since 2003, and both had only been
employed at NYCDOT as auto mechanics since
October 2008. Accordingly, at the time they were
transferred, neither Mechanic 3 nor Mechanic 4 had
more than two years of experience as auto mechanics
within the NYCDOT.
71. This was reflected in their work at the
Manhattan Shop, where their supervisor, Supervisor
II, assessed both of them to have far less automotive
expertise and knowledge than Bharat.
72. Executive Director II purposely took steps to
obfuscate the true nature of the BRP positions, so
that other applicants, including minority applicants
like Bharat, would not apply. Specifically, in posting
for the positions, Executive Director II purposely
listed the job as an office position at Harper Street
with a nighttime schedule. The advertised hours
discouraged applicants, and as a result, very few
eligible mechanics applied.
73. Once Mechanic 3 and Mechanic 4 were
selected for the position, however, their hours were
changed to the standard daytime schedules.
74. Executive
Director
II
continued
to
preferentially assign Mechanic 3 desirable work
assignments even after the BRP.
75. Following Mechanic 3’s transfer and
reassignment to the Fleet Services headquarters at
Harper Street in Queens (“Harper Street”),
Executive Director II assigned Mechanic 3 to report
directly to him and to undertake certain duties that
were never offered to any minority auto mechanics.

C-30
76. These responsibilities included oversight of
special projects, in addition to the BRP, and writing
specifications for acquisition of new vehicles and
vehicle parts.
77. Mechanic 3 was assigned these tasks by
Executive Director II as part of his new position, but
that position had only been made available to
Mechanic 3, a less qualified employee, due to
Executive Director II’s purposeful obfuscation of the
true nature of the job.
B. Promotion of Provisional SOMME (2010)
78. In the summer of 2010, Executive Director II
made the decision to promote a number of auto
mechanics into the SOMME title “provisionally.”
79. Compared to the positions that feed into it,
such as an auto machinist, auto mechanic,
electrician, or machinist, which have an approximate
annual salary of $65,250, the salary range for a
SOMME is between $92,899-$102,263.
80. The term “provisional,” as used in this
context, refers to the civil service status of the
position, and it is contrasted with the civil service
term “permanent.”
81. The New York civil service rules dictate that
candidates for permanent promotion must be drawn
from a ranked list of candidates who have taken a
written examination for the title (the “List”).
82. The List, which is maintained by the
Department of Citywide Administrative Services
(“DCAS”), ranks candidates based on the score that
they received on the written examination for the

C-31
supervisory title and other statutorily defined
factors, such as their seniority and veteran’s status.
83. Under the civil service rules, management
cannot promote an individual “permanently” without
first considering other candidates who are ranked
higher on the List.
84. In
addition,
in
selecting
candidates,
management is restricted to the three eligible
candidates who are ranked highest on the List.
85. In contrast to permanent promotions, because
provisional supervisors have no civil service rights to
their positions, the civil service rules place no
restrictions on the process used to provisionally
promote candidates into supervisory titles.
86. On August 6, 2010, at Executive Director II’s
direction,
NYCDOT
posted
a
promotional
opportunity notice for the position of SOMME.
87. The posting described the position and listed
under “Qualification Requirements,” under the
subheading “License Requirements,” that the
candidate “will be required to obtain a New York
State Class A only Commercial Driver License with
no restrictions, within ninety days of promotion.”
88. The posting accordingly did not require that
any applicant possess a “Class A” driver license at
the time of interview.
89. A total of 38 auto mechanics within NYCDOT
responded to the posting, which was open for only
two weeks.
90. Of these
candidates.

applicants,

ten

were

minority

C-32
91. These minority candidates included at least
two individuals who were known within Fleet
Services to be presently performing the duties of
Assistant Supervisor in their respective shops.
92. These two candidates were Bharat and
“Mechanic 5,” a Hispanic auto mechanic who served
as the Assistant Supervisor at the NYCDOT garage
operation in Brooklyn (“Brooklyn Shop”).
93. Like Bharat, Mechanic 5 had been assigned
as an Assistant Supervisor by the supervisor in
charge of his respective shop.
94. Although the candidates for promotion were
ostensibly selected by a committee which included
Executive Director II, and three other senior
managers from within Fleet Services and NYCDOT
Human Resources, the real decision-maker in the
process was Executive Director II.
95. Executive Director II alone selected the
candidates for interview, and with one exception, he
was effectively the sole decision-maker in the
process.
96. In spite of the large number of minority
applicants, including minority applicants who were
already serving in a supervisory capacity within
NYCDOT, of the twelve candidates who were
interviewed, only one was a racial minority.
97. This candidate was interviewed and promoted
at the request of Deputy Commissioner of RRM
because of the candidate’s role as a specification
writer in NYCDOT’s central office in downtown
Manhattan, where Deputy Commissioner of RRM
was also based, justified higher compensation.

C-33
98. The remaining three candidates who were
promoted, all at the direction of Executive Director
II, were white applicants.
99. One of these individuals was Mechanic 2, who
in 2009 had been placed in a supervisory position at
the Manhattan Shop, over Bharat, at Executive
Director II’s request.
C. Promotion of Permanent SOMME (2013)
100. In May 2013, Executive Director II took
steps to promote nine individuals permanently into
the SOMME position.
101. Throughout
the
process,
NYCDOT
management actively took steps which discriminated
against minority applicants and promoted the
candidacy of white applicants.
102. On May 1, 2013, a notice was sent to all
candidates listed on the list of candidates eligible for
promotion to SOMME.
103. These candidates were instructed to report
to the NYCDOT headquarters in Manhattan on
May 17, 2013, to be interviewed for the position.
104. In addition, in contrast to the 2010 posting
for the provisional SOMME position, as well as all
prior postings for permanent SOMME positions, the
May 2013 posting directed candidates to bring their
“CDL A License.”
105. The reason the posting stated this
requirement was because, in an unprecedented
decision, NYCDOT management had elected to
exercise what is known as a “selective certification,”
and to call only those candidates on the List who

C-34
already possessed a Class A license at the time of the
interview.
106. By deciding to limit eligible candidates only
to those who qualified for the Class A selective
certification, rather than to allow any selected
candidate to obtain a Class A license within 90 days,
as had been the past practice, NYCDOT
management removed from consideration any
candidate who did not already possess a Class A
license.
107. Mechanic 1, an African-American employee,
was the only applicant within the top fourteen
candidates without a Class A license at the time of
the interview. NYCDOT management’s decision to
require a Class A license at the time of interview
excluded Mechanic 1.
108. Given Mechanic 1’s high ranking on the List,
and the fact that he had been serving as an Assistant
Supervisor in the Bronx Shop, it would have been
very difficult for Executive Director II and NYCDOT
management to justify not promoting Mechanic 1
had management not exercised the selective
certification.
109. At an executive level supervisor meeting
prior to the May 17, 2013 interview date, Executive
Director II stated a desire to interview a white
candidate who was ranked fourteenth on the List.
110. In response to this proposal, Supervisor I,
who had since been promoted to an executive
management position, expressed dissent. Supervisor I
stated that, because the nine applicants that ranked
highest on the List were experienced auto mechanics
who had demonstrated their qualifications for

C-35
promotion through their service within Fleet Services,
none of these candidates should be passed over in
favor of others who were ranked lower on the List.
111. Based on Supervisor I’s proposal, the top
nine candidates, including Mechanic 1 and Mechanic
5, two minority applicants, would have been selected
for the position.
112. Supervisor I was particularly adamant in
asserting that Mechanic 1 should be promoted, as he
had served for over fifteen years as an Assistant
Supervisor.
113. Although others in the meeting agreed with
Supervisor I’s view, Supervisor I was the only
individual to speak up against Executive Director II’s
proposal of interviewing candidates ranked lower on
the list.
114. Following the meeting, Supervisor I was
excluded from any further decision making regarding
the selection of candidates for promotion.
115. On the date of the scheduled interview,
although many eligible candidates reported to the
scheduled interview date as directed in the notice,
rumors were widespread that Executive Director II
had already decided whom he would promote, and
the interviews were therefore being conducted
merely to satisfy technical requirements.
116. Upon arriving at the interview location,
which was located at the NYCDOT headquarters,
Mechanic 5 and other eligible candidates saw Deputy
Commissioner of RRM in the same building. When
Deputy Commissioner of RRM inquired as to why
Mechanic 5 was there dressed in a suit, Mechanic 5

C-36
replied that he was there for the interviews for the
SOMME posting.
117. In response, Deputy Commissioner of RRM
stated “sometimes you just have to wait your turn.”
118. After the interviews, which were conducted
by Executive Director II, Executive Director II’s
second-in-command, and two employees from
NYCDOT’s
human resources
division,
nine
candidates were selected for promotion.
119. Although four individuals conducted the
interviews, the promotion decisions were ultimately
Executive Director II’s, as the other interviewers
deferred entirely to his authority.
120. Of the nine candidates selected for
promotion, none of the eight candidates selected for
promotion by Executive Director II was a minority
candidate.
121. This was the case even though all three of
the minority candidates who ranked high enough on
the List to be considered had served as Assistant
Supervisors in the past, and indeed, Mechanic 1 was
continuing to serve as an Assistant Supervisor at the
time of the interviews.
122. In addition, one of the candidates who was
selected, Mechanic 3, was significantly less
experienced than the minority candidates who were
passed over.
123. In their written justification for Mechanic 3’s
selection, the interviewers cited his unique
experience in writing specifications, a task he had
been preferentially assigned by Executive Director
II.

C-37
D. Retaliation Against Dissent
124. Some time after he had expressed criticism
of Executive Director II’s handling of the selection
process for SOMME, Supervisor I received an e-mail
that all weekday overtime for Fleet Services
executive staff, such as himself, should be
discontinued and that future overtime requests
would have to be submitted to Executive Director II
for prior approval.
125. The e-mail effectively discontinued what had
been the prior practice for executive staff within
Fleet Services to return to their desks for an extra
hour at the end of each day, during which time they
handled administrative duties and received overtime
compensation.
126. Supervisor I interpreted the e-mail as a
policy to reduce overtime and responded accordingly,
reducing his salary by approximately $11,000 per
year.
127. After he received the e-mail, however,
Supervisor I became aware that other executive staff
members were continuing to send e-mails after the
normal work day.
128. As a result of receiving these e-mails,
Supervisor I realized that what he had interpreted
as an agency-wide “policy,” may have instead been
an e-mail sent specifically to him, as retaliation for
his prior dissent in the SOMME hiring process.
E. Subsequent Threats Against Dissenters
129. On October 22, 2013, Blacksmith 1
expressed to his supervisor a complaint that a white
blacksmith was being given preferential treatment

C-38
with respect to his overtime allowance and had been
recently granted the option of “clocking in” in his
home borough, a privilege which Blacksmith 1 had
requested in 2011 and been denied by Executive
Director II.
130. This complaint was relayed to Executive
Director II on that same day, and Executive Director
II then requested that Blacksmith 1 come to his
office at Harper Street the following day for a
meeting.
131. At the time of the appointed meeting, on
October 23, 2013, Blacksmith 1, along with
Supervisor I and Blacksmith 1’s direct supervisor,
reported to Executive Director II’s office as
requested. They were joined by other members of
Fleet Services’ executive leadership.
132. During the meeting, Blacksmith 1 stated his
concern regarding how Executive Director II had
treated the white blacksmith preferentially to how
he himself had been treated. Executive Director II
responded to this statement that “it’s none of your
concern what I do in this place.”
133. Blacksmith 1 then raised a concern that the
disparate treatment he had received was similar to
Mechanic 1 having been denied the SOMME
promotion. Blacksmith 1 further stated that
Mechanic 1 should have been promoted to SOMME.
134. In response, Executive Director II said in a
loud and threatening manner that was clearly heard
by everyone in the room, “I’ll take you outside and
kick your fucking ass.”

C-39
135. Upon Executive Director II’s threat of
physical violence, Blacksmith 1 feared for his safety
and left the room.
136. Although this incident was reported by
Blacksmith 1 to NYCDOT’s Office of the Advocate in
2014, and was witnessed by all of the individuals
present in the meeting, Blacksmith 1 never received
a formal apology and Executive Director II remained
in his position as ED following the incident.
EEOC Proceedings
137. On November 8, 2013, Bharat filed with the
EEOC an individual charge of discrimination on the
basis of race and national origin under Title VII.
138. In an Answer and Position Statement filed
on February 28, 2014, NYCDOT denied Bharat’s
allegations and asserted that the nine candidates
selected for promotion to SOMME were selected on
the basis that: (1) four of the candidates were already
serving provisionally in the title, and accordingly,
possessed unique familiarity and experience in order
to perform the job; and (2) the remaining candidates
all possessed the requisite skills needed to fulfill the
duties of the SOMME position.
139. On May 14, 2014, Bharat, through counsel,
filed a letter rebuttal to the NYCDOT’s Answer and
Position Statement
140. On October 16, 2014, the EEOC’s New York
District Director issued a cause determination with
regard to Bharat’s charges of discrimination. The
EEOC found that there was reasonable cause to
believe Bharat’ s allegation that he was not promoted
to a supervisory position by the NYCDOT because of
his race and national origin. After determining that

C-40
further conciliation efforts would be futile, on
December 15, 2014, the EEOC referred this matter
to the Department of Justice for possible litigation.
Conditions Precedent to Suit
141. All conditions precedent to the filing of this
suit have been satisfied.
FIRST CLAIM FOR RELIEF
(Pattern or Practice of Discrimination)
142. The allegations in paragraphs one through
142 are repeated and realleged as though set forth
fully herein.
143. The acts, omissions, policies, and practices
described in paragraphs 1 through 142 above
constitute a pattern or practice of employment
discrimination on the basis of race in violation of 42
U.S.C. § 2000e-2(a)(1) and retaliation in violation of
42 U.S.C. § 2000e-3(a). This pattern or practice
denies racial minorities and others employed within
Fleet Services the full exercise of the rights secured
by Title VII. Unless enjoined by the Court,
Defendants will continue to engage in practices that
are the same as or similar to those that are alleged
in this Complaint.
SECOND CLAIM FOR RELIEF
(Discrimination Against Bharat and
Similarly-Situated Individuals)
144. The allegations in paragraphs 1 through 142
are repeated and realleged as though set forth fully
herein.

C-41
145. Defendants violated 42 U.S.C. § 2000e2(a)(1) by discriminating against Bharat and
similarly-situated individuals on the basis of race
and national origin.
WHEREFORE,
judgment:

the

United

States

demands

(a) declaring that Defendants engaged in a
pattern and practice of discrimination based on race
in violation of 42 U.S.C. § 2000e-2(a)(1) and
retaliation in violation of 42 U.S.C. § 2000e-3(a);
(b) enjoining Defendants from engaging in
discriminatory and retaliatory employment practices
in violation of Title VII;
(c) ordering Defendants to take such other steps
as may be necessary to prevent and remedy
employment discrimination and the patterns or
practices of discrimination in employment identified
above;
(d) ordering Defendants to provide remedial
relief, including but not limited to sufficient damages
to
compensate
Bharat,
similarly-situated
individuals, and others, to make them whole for the
losses they have suffered as a result of the
discrimination and retaliation alleged in this
Complaint; and
(e) granting the United States its costs and
disbursements, and such further relief against
Defendants as the Court may deem just and proper.

C-42
Date:

New York, New York
January 18, 2017
PREET BHARARA
United States Attorney for the
Southern District of New York
Attorney for United States of America
By: /s/ Jessica Jean Hu
JESSICA JEAN HU
Assistant United States Attorney
86 Chambers Street, Third Floor
New York, New York 10007
Tel.: (212) 637-2726
Fax: (212) 637-2717
E-mail: jessica.hu@usdoj.gov

C-43
Exhibit B to Amended Complaint Consent Decree, Filed June 14, 2017
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
17 Civ. 0364 (JGK)
CONSENT DECREE
————————————————————
UNITED STATES OF AMERICA
v.

Plaintiff,

CITY OF NEW YORK,
Defendant.
————————————————————
WHEREAS, this action was brought by Plaintiff
United States (“United States’’) against Defendant
the City of New York (the “City”) and the New York
City Department of Transportation (the “NYCDOT’’)
to enforce Title VII of the Civil Rights Act of 1964,
42 U.S.C. § 2000e et seq., as amended (“Title VII”).
WHEREAS, this Court has jurisdiction over this
matter under 42 U.S.C. § 2000e-6(b) and 28 U.S.C.
§§ 1331 & 1345.
WHEREAS, the United States first notified the
City of its investigation into the promotional
practices of NYCDOT in November 2015.
WHEREAS, based on the information gathered
during its investigation, the United States
determined that the City has engaged in a pattern or

C-44
practice of racial discrimination and retaliation in
the Fleet Services unit (“Fleet Services”) within the
New York City Department of Transportation
(“NYCDOT’’).
WHEREAS, the United States notified the City in
June 2016 that a lawsuit had been authorized.
WHEREAS, in its Complaint, filed on January 18,
2017, the United States alleges that, as part of an
ongoing pattern and practice of discrimination
against racial minorities in its Fleet Services, the
City failed to promote racial minority employees to
supervisory positions and retaliated against those
who criticized the discrimination. Specifically, the
United States alleges -that, since at least 2007, the
City failed to take steps to remedy, and effectively
condoned, a management culture in which overt
racial animus and inferred racial preference were
both tolerated and allowed to thrive.
WHEREAS, the United States and the City,
desiring that this action be settled by an appropriate
consent decree (the “Decree”) and without the
burdens of protracted litigation, agree to the
jurisdiction of this Court over the Parties and the
subject matter of this action.
WHEREAS, the United States and the City
further agree to the entry of this Decree as final and
binding between themselves as to the issues raised
in the United States’ Complaint in this action.
In resolution of this action, with the consent
of the Parties, IT IS
THEREFORE ORDERED, ADJUDGED, AND
DECREED as follows:

C-45
I.

DEFINITIONS

1. The “Parties” to this Decree are the United
States, by the Department of Justice, and the City.
2. “SOMME” means Supervisor of Mechanics
(Mechanical Equipment). For the purposes of this
Decree, the term SOMME shall be limited to
SOMME positions and employees within NYCDOT
Fleet Services.
3. “Applicant’’ means any individual employed by
NYCDOT who applies or has applied for the position
of SOMME within Fleet Services from August 6,
2010 through the term of this consent decree.
4. “Claimant” means a person who the Parties
have agreed is entitled to an award of individual
relief.
5. “Back Pay’’ means a monetary award that
represents the value of the additional wages and/or
other benefits that a Claimant would have received if
he or she had: (a) been permanently and/or
provisionally promoted to the position of SOMME
between August 6, 2010 and July 5, 2016; and/or (b)
not been retaliated against for having alleged racial
discrimination in the selection of candidates for
promotion to SOMME.
6. ‘‘Complainant” means Seupersaud Bharat.
7. ‘‘Day” or “Days” means calendar days unless
business days are clearly specified. Any deadline
referenced in this Decree shall be calculated
pursuant to Rule 6 of the Federal Rules of Civil
Procedure.
8. “Defendant’’ means the City.

C-46
9. “Effective Date” means the date on which the
Court enters the Decree as final.
10. “Fleet Services” is a NYCDOT unit headed by
an Associate Deputy Commissioner, who reports
directly to the NYCDOT Chief Operations Officer.
Until September 17, 2015, Fleet Services was a subdivision of NYCDOT Roadway Repair and
Maintenance Division (“RRM’’).
11. “Individual relief’ under this Decree means:
a. monetary relief in the form of back pay;
and/or
b. retroactive seniority relief.
12. A “Job Vacancy” refers to any vacancy within
Fleet Services for the position of SOMME.
13. ‘‘Permanent Appointment” refers to the
appointment of an individual to the title of SOMME
from an eligible list, as described in N.Y. Civil
Service Law § 61(1).
14. “Posting” refers to any written or electronic
notice or advertisement of a Job Vacancy.
15. “Provisional Appointment” refers to the
appointment of an individual to the position of
SOMME. as described in N.Y. Civil Service Law § 65.
16. “Retroactive Seniority Relief’ means the
award of retroactive seniority for the SOMME
position of Complainant and/or a Claimant who is
eligible for relief pursuant to Paragraph 37 of the
Decree. A Claimant is eligible for Retroactive
Seniority Relief under this Decree if the Claimant is
a minority Applicant who was called from the Civil
Service list in response to a vacancy for Permanent

C-47
Promotion to the position of SOMME from August 6,
2010, through July 5, 2016; was not selected in favor
of non-minority applicants who were ranked lower
than the minority applicant on the Certified Civil
Service List; and, as described in Paragraph 23(e)(e),
has since been permanently promoted to the position
of SOMME.
17. “Retroactive Seniority’’ refers to seniority
benefits in the SOMME position that a Claimant
who receives retroactive seniority relief described in
Paragraph 16 is entitled to receive.
a. Retroactive Seniority is comprised of
retroactive benefits seniority, which includes
seniority for purposes of calculating an individual’s
salary or other pay, as well as any other purposes for
which seniority is used to determine the amount of or
eligibility for employee benefits.
b. An award of Retroactive Seniority shall
correspond to June 9, 2013.
18. The “Term of this Consent Decree” refers to
the entire period of time during which the Court
retains jurisdiction over the Decree, as set forth in
Section III of this Decree.
II. RETENTION OF JURISDICTION
19. This Court has jurisdiction over the parties
and the subject matter of this action. The Court shall
retain jurisdiction over this action for a period of
three years after the Effective Date to enforce or
modify the Decree, to resolve any dispute that arises
under the Decree, and to entertain any application
by any party and issue any order that may be
necessary or appropriate to effectuate its terms and
objectives.

C-48
20. The Court may extend the term of the Decree
upon consent of the parties, or upon an application of
either party for good cause shown.
21. The parties will confer and attempt to
negotiate a consensual resolution of any dispute
before making an application to the Court.
III. PURPOSES OF THE DECREE
22. The purposes of this Decree are to ensure
that:
a. The City does not violate Title VII by using
policies or practices that have an adverse impact
upon racial minorities for the position of SOMME, or
that otherwise violate the Title VII rights of racial
minorities to become SOMME;
b. The City utilizes lawful selection procedures
that will ensure that promotion to the SOMME title
is based on merit and that the City’s selection
procedure does not discriminate against qualified
minority applicants; and
c. The City provides, as appropriate, monetary
relief and/or retroactive seniority relief to qualified
persons who were denied a promotion to the SOMME
position or retaliated against due to the employment
practices challenged by the United States in this
case.
d. The City takes steps to remedy the manner
in which claims of discrimination are investigated
and addressed.

C-49
IV. STIPULATIONS
23. Subject to the Court’s approval of this Decree,
the Parties waive findings of fact and conclusions of
law on all issues, except as to the following, which
the Parties stipulate and which the Court finds:
a. In 2009, the NYCDOT Equal Employment
Opportunity Office (‘‘NYCDOT EEO”) conducted an
investigation into allegations of racial discrimination
within Fleet Services.
b. As part of its investigation, NYCDOT EEO
interviewed numerous Fleet Services employees.
c. During these interviews, employees reported
that they had witnessed the Executive Director of
the Fleet Services Unit within RRM at the time,
‘‘Executive Director I,” use racial epithets to describe
African American employees.
d. One of the employees interviewed during the
investigation by NYCDOT EEO was “Executive
Director II,’’ a direct report of Executive Director I.
e. In his initial interview with NYCDOT EEO,
on October 23, 2009, Executive Director II denied
having ever observed Executive Director I behave
inappropriately.
f. At his request, Executive Director II was
interviewed again on October 26, 2009. In his
subsequent interview, Executive Director II reported
to NYCDOT EEO that he repeatedly observed
Executive Director I using racial epithets over the
course of several years.
g. Until he was interviewed for the second time
by NYCDOT EEO in connection with its
investigation of Executive Director I, Executive

C-50
Director II had never reported these racially
discriminatory statements.
h. From 1997 to 2010, Executive Director I had
served as the EEO counselor within Fleet Services
for the NYCDOT EEO.
i. During the course of the interviews conducted
by NYCDOT EEO, employees also reported that they
believed that Executive Director I had taken
personnel actions which were motivated by racial
animus.
j. Following its investigation, NYCDOT EEO
recommended that Executive Director I be demoted,
suspended, and removed from his function as a
NYCDOT EEO counselor.
k. These recommendations were reviewed by
the Commissioner of NYCDOT at the time in
January 2010, and were shared with NYCDOT’s
Office of the Advocate, the agency unit charged with
overseeing the statutory and contractual disciplinary
procedures.
l. After being informed by NYCDOT EEO that
his case had been referred to the Office of the
Advocate for further disciplinary action, Executive
Director I chose to retire.
m. Upon learning of Executive Director I’s
decision to separate from City service, the City did
not continue the formal disciplinary process against
him.
n. At the time of his retirement, Executive
Director I had never been subject to any formal
disciplinary sanctions imposed by the City.

C-51
o. Upon Executive Director I’s retirement,
Executive Director II was promoted to the position
previously held by Executive Director I.
p. Complainant is a racial minority who has
been employed by NYCDOT as an auto mechanic
from October 2008 to September 2016 and as a
SOMME from September 2016 to the present.
q. At some time during Complainant’s
employment, Executive Director II instructed
Complainant’s direct supervisor to reassign
Complainant’s supervisory duties to a non-minority
auto mechanic who had fewer years of experience as
an auto mechanic than Complainant. Executive
Director II gave this instruction over the expressed
preference of Complainant’s direct supervisor.
r. In 2010, Complainant submitted an
application in response to a Job Vacancy notice for
provisional appointment to the position of SOMME.
s. Complainant
position.

was

not

selected

for

this

t. In May 2013, Complainant was called from
the Certified Civil Service List for interview for a
permanent promotion to the SOMME position by
three NYCDOT employees, including Executive
Director II.
u. A three-person committee of NYCDOT
management did not select Complainant for
promotion to the position of permanent SOMME.
v. In 2013, Complainant was not selected in
favor of non-minority applicants who had fewer years
of experience working as an auto mechanic than
Complainant.

C-52
w. During Executive Director II’s tenure, from
2010 to 2016, Defendant promoted one minority
applicant to the position of SOMME.
x. During Executive Director II’s tenure as
Executive Director of Fleet Services, non-minority
applicants were selected for promotion over minority
applicants, even when the minority applicants had
more years of automotive experience and had been
serving in a supervisory capacity without
commensurate compensation or title.
y. When management employees challenged
Executive Director II’s promotional decisions,
however, they were removed from the promotional
decision-making process.
z. When a non-management employee accused
Executive Director II of discriminating against racial
minorities within Fleet Services, Executive Director
II verbally threatened the employee, including a
threat of physical violence. This verbal threat of
physical violence was made in the presence of several
other supervisory personnel within Fleet Services.
aa. Two
minority
employees,
including
Complainant, asserted complaints of discrimination
by Executive Director II in the promotion process.
Both of these complaints were investigated and
determined to be unsubstantiated by NYCDOT EEO.
bb. On June 2, 2016, the City was informed
that the U.S. Attorney’s Office had conducted an
investigation regarding the allegations in the
Complaint.
cc. Up until June 2, 2016, ‘Executive Director II
continued to serve as Executive Director of Fleet
Services.

C-53
dd. After June 2, 2016, the City: (I) removed
Executive Director II from all supervisory duties and
all functions associated with selecting candidates for
promotion; and (2) permanently promoted three
minority candidates to the position of SOMME,
including Complainant.
V. GENERAL INJUNCTIVE RELIEF
24. The City, its officials, agents, employees, and
successors shall not engage many act or practice that
violates Title VII of the Civil Rights Act of 1964 in
connection with the recruitment, selection, and
employment of racial minorities for the position of
SOMME.
25. The City, its officials, agents, employees, and
successors shall not engage in any act or practice
that has the purpose or effect of unlawfully
discriminating on the basis of race against
Applicants for the position of SOMME.
26. The City, its officials, agents, employees, and
successors will take steps to investigate and address
claims of discrimination that are brought to the
attention of the NYCDOT’s Office of Equal
Employment Opportunities.
27. The City, its officials, agents, employees, and
successors shall not adopt or implement any policy,
process, or practice for job appointments, promotions
or hiring that has the purpose or effect of
discriminating on the basis of race against any
Applicant for the position of SOMME.
28. The City, its officials, agents, employees, and
successors are enjoined from retaliating against or
otherwise adversely affecting any person because he
or she opposed the alleged discrimination at issue

C-54
here, in any way participated in or cooperated with
the investigation or litigation of the alleged
discrimination at issue here, has been involved with
the development or administration of this Decree, or
received relief under or otherwise benefited from this
Decree.
29. The NYCDOT Office of the General Counsel
within the Division of Legal Affairs shall be
primarily responsible for enforcing the provisions of
this Decree. This Office of the General Counsel’s
responsibilities shall include, but not be limited to,
ensuring that the City fully implements and
complies with all paragraphs of this Decree.
VI. PROCESS FOR FILLING JOB VACANCIES
30. All permanent promotions to the position of
SOMME shall be made from the Certified Civil
Service List, in accordance with Civil Service Law
§ 61.
31. The City shall notify the United States within
twenty-one (21) days if, at any time during the term
of this Decree, there is no existing Civil Service List
for the position of SOMME from which a permanent
promotion can be made by NYCDOT.
32. If at any time during the term of this Decree,
there is no existing Certified Civil Service List, and
the exigencies of the City’s staffing requirements
render it impossible or impractical to delay in hiring
for the position of SOMME until another civil service
list has been certified, Defendant may fill Job
Vacancies
through
provisional
appointments
pursuant to Civil Service Law § 65(1), provided,
however, that it fills any such Job Vacancy in
accordance with the following procedures:

C-55
a. Defendant shall publish a Posting for a
period of at least thirty (30) days. The Posting shall
be published at least forty-five (45) days prior to the
deadline for applications for the Job Vacancy.
b. Defendant shall, at a minimum, publish the
Posting on the NYCDOT’s internet and intranet
websites, as well as all other locations at which the
NYCDOT typically posts a physical Posting.
Defendant will also distribute the Posting to the
appropriate union for the position.
c. The Posting shall include, at a minimum, a
description of the position, a description of the
application process, the salary for the position, the
minimum qualifications necessary for the position,
and any other eligibility requirements. The Posting
shalt also include a statement that the NYCDOT is
an Equal Opportunity Employer.
d. The City will review all applications received
in response to a Posting to ensure that Applicants
meet the minimum qualifications and are eligible to
apply.
e. Qualified Applicants shall be contacted
telephonically, letter and/or via email and scheduled
for an interview. A letter and/or email confirming the
time and date of each interview shall be sent to each
Applicant.
f. Applicants selected for interviews in response
to a particular posting shall be interviewed by the
same panel of interviewers whenever possible.
g. During the interview, the panel will ask the
same prepared questions of all selected Applicants.
The interview questions will be prepared in advance
by NYCDOT, and reviewed and signed off on by the

C-56
Associate Deputy Commissioner of the Fleet Services
Division (or his/her equivalent), in consultation with
the NYCDOT EEO Officer. Panel members may also
ask appropriate, job-related follow-up questions of
their own. Each panel member must separately fill
out an interview rating sheet, ranking each
interviewed Applicant based upon the panel
member’s
evaluation
of
the
Applicant’s
qualifications, including, but not limited to, relevant
prior experience, job performance, years of service,
and performance during the interview.
h. At the conclusion of the interviews, the pane[
will meet to discuss the interviewed Applicants and
to rank them based on the criteria described in
subparagraph 32(g). The panel will produce a list
reflecting ranking of the interviewed Applicants.
i. Offers for provisional appointment to the
position of SOMME shall be made in order of the
Applicant’s ranking on the list prepared by the
panel. The list shall exist only for the vacancy or
vacancies being considered at that time.
j. Offers for the provisional appointment to the
position of SOMME shall be made in writing.
33. Nothing in Paragraph 32 shall preclude the
City from accepting as a transfer a permanent
SOMME from another NYCDOT Division or City
Agency for the purpose of filling a SOMME vacancy
in Fleet Services.

C-57
VII.

COMPLAINANT’S RELIEF

34. Within ninety (90) days after the Effective
Date, in order to settle any and all claims and
demands against the City by Complainant arising
from the facts and circumstances giving rise to the
Complaint, and any other pending claims
Complainant has against the City in any court or
other forum, the City agrees to provide the relief to
the Complainant described in paragraphs (a), (b),
and (c) below:
a. provide Complainant Back Pay and
Retroactive Seniority relief pursuant to this Decree;
b. pay to Complainant the sum of one hundred
and fifty thousand dollars ($150,000) as additional
compensatory damages; and
c. pay Complainant’s reasonable attorneys’ fees
and costs in the amount of $70,000.
d. In the event that Complainant becomes
deceased prior to the payment of the above amounts,
such amounts shall be paid in accordance with New
York State law.
VIII. INDIVIDUAL RELIEF
A. Two Forms of Individual Relief
35. The City will provide individual relief to
eligible Claimants in the form of monetary relief (i.e.,
back pay) and/or retroactive seniority relief.
36. A Claimant is eligible for monetary relief (e.g.,
back pay) under this Decree if the Claimant:

C-58
a. is a minority Applicant who submitted an
application in response to a Posting for Provisional
Appointment to the position of SOMME from August
6, 2010, through July 5, 2016, and was not selected
in favor of a non-minority applicant; and/or
b. is a minority Applicant who was called from
the Civil Service list in response to a vacancy for
Permanent Promotion to the position of SOMME
from August 6, 2010, through July 5, 2016; and was
not selected in favor of non-minority applicants who
were ranked lower than the minority applicant on
the Certified Civil Service; and/or
c. is a current or fanner NYCDOT employee
who was deprived of wages, or otherwise suffered a
material adverse employment action, in retaliation
for having alleged discrimination in the selection of
candidates for promotion to the position of SOMME.
37. A Claimant is eligible for retroactive seniority
relief if the employee satisfies Paragraph 36(b), and
is one of the three minority candidates who, as
described in Paragraph 23(d)(d), were permanently
promoted to the position of SOMME after June 9,
2016.
B. Monetary Relief
38. The Parties have agreed upon fourteen (14)
Claimants {the “Monetary Relief Claimants”) who
are eligible for monetary relief pursuant to
Paragraph 36.
39. A list of the Monetary Relief Claimants, and
the award that the Patties have agreed each
Monetary Relief Claimant is entitled to as individual
relief is attached as Appendix A to this Decree.

C-59
C. Retroactive Seniority Relief
40. The Parties have agreed upon three (3)
Claimants (the “Retroactive Seniority Claimants’’)
who are eligible for retroactive seniority relief
pursuant to Paragraph 37.
41. A list of the Retroactive Seniority Relief
Claimants is attached as Appendix B to this Decree.
IX. ADMINISTRATION OF INDIVIDUAL
RELIEF
A. Notice of Individual Relief Awards and
Acceptance of Individual Relief Award
and Release of Claims Form
42. No later than fourteen (14) days after the
Effective Date, the City shall provide notice to each
Monetary Relief Claimant and each Retroactive
Seniority Claimant entitled to relief.
43. The City shall send notice to each Monetary
Relief Claimant and each Retroactive Seniority
Claimant identified in Appendices A and B of this
Decree via e-mail to the last-known e-mail address
and via first-class U.S. mail to the last-known
mailing address. The notice shall include:
a. The Notice of Individual Relief Award in the
form set forth in Appendices C and D. If the
Claimant is eligible for Retroactive Seniority relief.
as set forth in Appendix D, this notice will include a
statement of the Claimant’s eligibility for such relief
and a description of the retroactive seniority the
Claimant will receive upon receipt of Retroactive
Seniority relief;

C-60
b. An Acceptance of Individual Relief Award
and Release of Claims Form in the form set forth in
Appendix E; and
c. Any withholding tax forms necessary for the
City to comply with its withholding obligations under
law and Paragraph 54 of this Decree.
B. Acceptance of Individual Relief Award
and Release of Claims
44. To receive an award of individual relief, a
Claimant must return to the City an Acceptance of
Individual Relief Award and Release of Claims Form
as set forth in Appendix E of this Decree, along with
any applicable withholding tax forms, no later than
sixty (60) days after the Effective Date.
45. The submission date of each Acceptance of
Individual Relief Award and Release of Claims Form
shall be the date on which the form was e-mailed to
the City, as determined by the e-mail date stamp, or
the date on which the form was mailed to the City, as
determined by the postmark. In the event the
postmark is missing or illegible, the submission date
of the Acceptance of Relief and Release of Claims
Form shall be deemed to be five (5) days prior to the
date the form was received by the City.
46. Within five (5) business days of the City’s
receipt of an Acceptance of Individual Relief Award
and Release of Claims Form and any applicable
withholding tax forms, or as soon as practicable, the
City shall review the form(s) to determine whether it
is fully executed with the information that is
necessary to effectuate the Claimant’s individual
relief award.

C-61
47. An Acceptance of Individual Relief Award and
Release of Claims Form is fully executed if the
Claimant completes all blanks that require a
response as indicated by an asterisk on the form. A
withholding tax form is fully executed based on
whether it complies with the protocol provided by the
City pursuant to Paragraph 54.
48. If the form is not fully executed, within ten
(10) business days, or as soon as practicable, after
receipt of the form, the City shall notify the Claimant
via mail. e-mail, and telephone that his/her form(s)
was not fully executed, and provide information to
the Claimant indicating what is required to fully
execute the form.
49. The City shall continue to conduct such
review of all returned forms and to notify Claimants
who submitted forms that were not fully executed
until the deadline set forth in Paragraph 44.
50. No later than five (5) business days after the
deadline provided by Paragraph 44, the City shall
forward to the United States copies of all Acceptance
of Individual Relief Award and Release of Claims
Forms and withholding tax forms it received from
Claimants named in Appendices A and B of this
Decree. The City shall also provide the United States
with a list of all Claimants who submitted
Acceptance of Individual Relief Award and Release of
Claims Forms and withholding tax forms, identifying
which Claimants submitted fully-executed forms, as
described in Paragraph 44, and which Claimants
submitted forms that were not fully executed.
51. No later than seventy-five (75) days after the
Effective Date, Claimants whose Acceptance of
Individual Relief A ward and Release of Claims Form

C-62
and/or any applicable withholding tax forms were not
fully executed must provide any missing information,
and Claimants must show good cause, to be
determined by the United States, for failing to meet
the prior deadline, and must return fully-executed
forms. A Claimant’s failure to return fully-executed
forms or failure to show good cause by this deadline
shall constitute a rejection of the offer of individual
relief and shall release the Parties from any further
obligation under the Decree to make an award of
individual relief to the Claimant.
52. No later than five (5) business days after the
deadline provided in Paragraph 51, the City shall
provide the United States with all of the returned
Acceptance of Individual Relief Award and Release of
Claims Forms and any applicable withholding tax
forms. The City shall also provide the United States
with an updated list of all of the Claimants who
submitted Acceptance of Individual Relief Award and
Release of Claims Forms and any applicable
withholding tax forms, identifying which Claimants
submitted fully-executed forms and which Claimants
submitted forms that were not fully executed.
C. Issuance of Back Pay Award Checks
by City
53. No later than ninety days (90) after the
deadline provided in Paragraph 52, the City shall
mail via certified U.S. mail (return receipt requested)
a back pay award check to each Monetary Relief
Claimant listed on Appendix A who submitted a
fully-executed, as defined in Paragraph 44,
Acceptance of Individual Relief A ward and Release
of Claims Forms and any applicable withholding tax
forms. The amount of the back pay award check shall

C-63
be the amount shown for the Claimant on Appendix
A, less all applicable deductions and withholdings in
accordance with Paragraph 54, below.
54. The City shall withhold from each Monetary
Relief Claimant’s back pay award the employee
portions of all appropriate federal, state, and local
income taxes; the employee’s Medicare and FICA tax;
and any other amounts that are required to be
withheld by law. The City shall be responsible for
remitting and reporting such employee-side
withholdings to the appropriate taxing authorities.
55. The City shall be responsible for and remit to
the appropriate taxing authorities the employer
portion of all federal and state payroll taxes
applicable on any monetary relief award paid to a
Monetary Relief Claimant, including employer
contributions to Medicare and the Social Security
fund. The employer portion of such taxes shall not be
deducted from any Monetary Relief Claimant’s back
pay award.
56. The City shall keep records of all back pay
award checks that are returned to the City as
undeliverable. If any Monetary Relief Claimant’s
back pay award check is returned as undeliverable,
the City shall promptly notify the United States and
attempt to identify an updated mailing address as
soon as practicable.
57. If the City or the United States identifies an
alternate address, the City shall re-mail the back
pay award check within five (5) business days to the
Monetary Relief Claimant.

C-64
58. No later than two hundred and ten (210) days
after the Effective Date, the City shall provide to the
United States a statement indicating the amount of
the payment made to each Monetary Relief
Claimant, the amounts withheld from each such
back pay award check for taxes, if applicable, and
other amounts required to be withheld by law, and
the purpose of each such withholding.
59. No later than thirty (30) days after the
deadline in Paragraph 58, the City. shall provide to
the United States a list of all Monetary Relief
Claimants whose award payments are still
outstanding. The list shall identify which Monetary
Relief Claimant’s checks appear to have been
delivered (no returned check) but have not been
cashed, and which Monetary Relief Claimant’s
checks have been returned to the City as
undeliverable.
60. No later than forty-five (45) days after the
deadline in Paragraph 58, the City shall email and
mail a letter to all Monetary Relief Claimants whose
award payments are still outstanding to inform such
Monetary Relief Claimants that their awards may be
redistributed or otherwise reallocated if they do not
accept payment by a specified date that is ninety (90)
days after issuance of the check. The letter shall
state that no further warnings regarding such
distribution will be given.
61. No later than ninety (90) days after the
deadline in Paragraph 58, the City shall provide the
United States with a list of all Claimants whose back
pay award checks were returned as undeliverable
and/or uncashed.

C-65
D. Retroactive Seniority Relief
62. As described in Paragraph 23(d)(d), the
individuals listed on Appendix B were permanently
promoted to the SOMME position prior to the City
providing an offer of retroactive seniority pursuant to
this Decree.
63. The City will send to all individuals listed on
Appendix B, by e-mail to the last-known e-mail
address and by U.S. mail to the last-known mailing
address, a written offer to apply for retroactive
seniority corresponding with the Claimant’s
retroactive seniority date as provided by this Decree.
This offer will include: (i) the salary and retroactive
seniority benefits based on his/her retroactive
seniority date that the City will provide upon
assumption of the SOMME title; (ii) the telephone
number at which the Claimant may contact the City
with any questions regarding the offer to have
retroactive seniority applied; and (iii) that the
Claimant has at least thirty (30) days from the date
on which the Claimant receives the written offer to
notify the City that the Claimant accepts the offer.
64. If a Retroactive Seniority Claimant fails to
timely accept the City’s offer of retroactive seniority,
except for good cause as determined by the United
States, the City’s obligation to provide the offer of
retroactive seniority of that Claimant ceases.
65. On the date on which a Retroactive Seniority
Claimant is offered retroactive seniority pursuant to
Paragraph 63, the City shall credit the Claimant
with retroactive seniority corresponding with June 9,
2013. The City will notify the United States in
writing within thirty (30) days of crediting any
Retroactive
Seniority
Claimants
with
such

C-66
retroactive seniority, pursuant to Paragraph 66,
below.
X. MONITORING AND OVERSIGHT
A. Reporting
66. No later than forty-five (45) days after such
offers have been made, the City shall provide to the
United States a written report identifying whether
each Claimant identified in Appendix B accepted the
offer of retroactive seniority.
67. During the term of this Consent Decree, the
City shall provide the United States with six (6)
reports, each covering a six-month reporting period.
The first reporting period will begin on the first day
of the month following the Effective Date. These
reports will be due within thirty (30) days from the
closing of the respective reporting period. Defendant
will provide the United States with the sixth and
final report thirty (30) days before the expiration of
the Consent Decree and the reporting period for the
final report will cover the period from the closing
date of the fifth report until ten (10) business days
prior to its issuance. For each of these six reports,
Defendant will provide the United States with the
following information and documents relating to the
reporting period in question:
a. A list of all individuals transferred into or
promoted to the SOMME position in Fleet Services
during the reporting period, including (i) names; (ii)
race; (iii) the manner in which the vacancy was filled
(i.e., from the civil service or through the procedures
set forth in this Consent Decree), (iv) the date of
promotion, and (v) ranking on the civil service list, if
applicable.

C-67
b. To the extent that Defendant invoke their
discretion under Civil Service Law § 61(1) to promote
individuals from the certified civil service list out of
rank order, (i) the names and races of all such
persons promoted, (ii) the names and races of all
persons who were ranked higher on the certified civil
service list than the selectees who were not hired for
the position of SOMME, and (iii) all information
relied upon in making the hiring decision.
c. To the extent any individual receives a
Provisional Appointment in accordance with the
procedures set forth in Paragraph 32, (i) a list of all
Applicants who submitted an application for a
provisional appointment to the SOMME position for
a prospective vacancy, broken down by race, (ii) a list
of all Applicants interviewed for the provisional
appointment to the SOMME position, and (iii) the
complete application packages for each such
Applicant, including all written materials submitted
by the Applicant, the list of questions asked at the
interview, the interview rating sheets, notes taken
by the panel and the panel’s ranking list.
d. For each Posting during the reporting period,
(i) the date of such Posting, (ii) the content of such
Posting, (iii) the manner of such Posting, (iv) the
location of such Posting and (v) the duration of such
Posting.
e. All complaints filed by Applicants with the
NYCDOT EEO or any City, state or federal entity,
alleging that s/he was not promoted on the basis of
his or her race and/or national origin, or alleging
retaliation for complaining regarding another
individual being discriminated against because of his

C-68
or her race and/or national origin, and all reports of
investigation or findings regarding those complaints.
68. If any of the information set forth above does
not exist or is not applicable for the relevant
reporting period, Defendant shall so inform the
United States in writing.
B. Record-Keeping
69. In addition to the documents identified in
Paragraph 67, above, during the term of this Consent
Decree Defendant shall retain all documents created
for purposes of compliance with the Decree.
70. During the term of this Decree, the United
States may request, in writing, access to any other
documents identified or not identified in this Decree
that the United States deems necessary to assess
Defendant’s compliance with the terms of the Decree.
Nothing in this Decree will be deemed to waive the
City’s attorney-client and/or work-product privileges.
XII.

DISPUTE RESOLUTION

71. The Parties shall attempt in good faith to
resolve informally any disputes that arise under this
Decree. If the Parties are unable to resolve the
dispute expeditiously, either party may submit the
disputed issue to the Court for resolution upon
fifteen (15) business days written notice to the other
party, unless a different time period has been
specified elsewhere in the Decree.
XIII. DURATION OF THE CONSENT DECREE
72. Provided there are no outstanding disputes
being resolved pursuant to Paragraph 71, this
Decree shall be dissolved without further order of the
Court upon the completion of the following:

C-69
a. Fulfillment of the Parties’ obligations
regarding General Injunctive Relief set forth in
Section V of this Decree;
b. Completion of the process regarding issuance
of back pay award checks set forth in Paragraphs 53
through 61 of this Decree; and
c. The passage of forty (45) days after the date
the City provides the last of the reports and
statements required by Paragraphs 66 and 67 of the
Decree.
73. The Parties will promptly notify the Court of
the fulfillment of all obligations set forth under
Paragraph 72 and request that this action be
dismissed.
XIV. COSTS AND FEES
74. Other than the payment of costs pursuant to
Paragraph 34, each party shall bear its own costs,
and other expenses incurred as a result of obligations
imposed by this Decree.
XV.

MISCELLANEOUS TERMS
AND PROVISIONS

75. If any collateral challenge to the Decree arises
in any court and the City receives notice thereof, the
City shall immediately notify counsel for the United
States.
76. Any amendments or modifications to this
Decree shall be in writing and signed by each of the
parties.
77. Nothing in this Decree shall be construed to
relieve the City of its obligation to comply with any
federal, state or city statute or regulation. In the

C-70
event that any party contends that any
Constitutional provision, statute or regulation
conflicts with the City’s obligations under this
Consent Decree, such party may apply to the Court
for clarification of the City’s obligations.
78. Nothing in this Decree shall be construed to
limit the authority of the United States, pursuant to
Title VII or any other applicable statute, to
investigate or act upon any complaint of
discrimination brought to its attention, from any
source, including but not limited to referrals of
complaints by the EEOC, pursuant to 42 U.S.C.
§ 2000e-5.
79. Nothing in this Decree shall be construed to
waive or limit the legal rights and remedies of any
Claimant who declines the relief they are entitled to
pursuant to this Decree by: (1) indicating their
declination of relief in an Acceptance of Individual
Relief Award and Release of Claims Form returned
to the City; and/or (2) failing to return an Acceptance
of Individual Relief Award and Release of Claims
Form.
80. Nothing in this Decree shall be construed to
waive or limit the legal rights and remedies of any
individual who is not entitled to relief pursuant to
this Decree.
81. Any applications to the Court under this
Decree shall be on notice to all parties.
82. Copies of all notices, correspondence, reports
or documents required to be provided by one party to
the other under this Consent Decree shall be mailed
to:

C-71
United States Attorney’s Office
Southern District of New York
86 Chambers Street
New York, NY 10007
Attention: Chief, Civil Rights Unit
The City of New York Law Department
100 Church Street
New York. NY 10007-2601
Attention: Chief, Labor and Employment Law
Division
The City of New York, Department of Transportation
Division of Legal Affairs
55 Water Street, 9th Floor
New York, NY 10041
Attention: General Counsel
83. Each party acknowledges that it has not
relied upon any representations, warranties or
statements of any nature whatsoever, whether
written or oral, made by any person, except as
specifically set forth in this Decree and that this
Decree represents the entire agreement of the
parties. No prior agreements, oral representations or
statements shall be considered a part of this Decree.

C-72
JOON H. KIM
Acting United States Attorney for the
Southern District of New York
Attorney for the United States of America
By: /s/ Jessica Jean Hu
JESSICA JEAN HU
Assistant United States Attorney
86 Chambers Street, 3rd Floor
New York, New York 10007
Tel. No.: (212) 637-2726
Fax No.: (212) 637-2717
Email: jessica.hu@usdoj.gov
Dated:

New York, New York
June 13, 2017

ZACHARY W. CARTER
Corporation Counsel of the City of New York
Attorney for Defendant
100 Church Street, Room 2-101
New York, New York 10001
(212) 356-4015
aoconnor@law.nyc.gov
By: /s/ Andrea O’Connor
ANDREA O’CONNOR
Assistant Corporation Counsel
Dated:

New York, New York
June 13, 2017

SO ORDERED:
/s/ John G. Koeltl
JOHN G. KOELTL
United States District Judge

C-73
APPENDIX A
Last Name
Arce
Bharat
Conca
Connolly
Estrella
Fernandez
Grajales
Oca
Phanisnaraine
Prophete
Purran
Redman
Rios
Thompson

First Name
John
Seupersaud
Robert
Brian
Biro
Juan
Albert
Pedro
Motie
Donald
Honif
Oliver
Gustavo
Damon
APPENDIX B

Last Name
Arce
Bharat
Redman

First Name
John
Seupersaud
Oliver

Total
$168,625.58
$176,097.59
$10,000.00
$50,000.00
$64,167.20
$64,167.20
$64,167.20
$64,095.83
$64,167.20
$140,000.00
$64,167.20
$104,387.67
$64,167.20
$11,545.60

C-74
APPENDIX C
NOTICE OF AWARD OF INDIVIDUAL
MONETARY RELIEF
Re: United States of America v. City of New York
17 Civ. 0364 (U.S. Dist. Ct. S.D.N.Y.)
On [date], the Court approved a final monetary
award list pursuant to the Consent Decree entered
by the Court earlier in this case. You are receiving
this Notice because the Court has determined that
you are eligible for an award of backpay and/or
emotional distress damages.
PLEASE READ THIS NOTICE CAREFULLY
The Court has determined that you are eligible to
receive an award of backpay and/or emotional
distress damages in this case. The amount of this
award is shown in the enclosed Acceptance of
Monetary Relief and/or Retroactive Seniority Relief
and Release of Claims form. To receive this award,
you must:
a.

Fill out completely the enclosed Acceptance
of Monetary Relief and/or Retroactive
Seniority Relief and Release of Claims form,
including all requested information, initial
the first page of the form. and sign it.

b.

Fill out completely the enclosed tax forms,
so that appropriate withholdings for taxes,
FICA and Medicare may be made from any
backpay award, and so that taxpayer
identification is provided for any individual
receiving damages for emotional distress.

C-75
c.

Return the completed Acceptance of
Monetary
Relief
and/or
Retroactive
Seniority Relief and Release of Claims form
and other required forms to the NYCDOT
Office of the General Counsel within the
Division of Legal Affairs no later than
[date]. Send these documents by U.S. mail
to:
The City of New York, Department
of Transportation
Division of Legal Affairs
55 Water Street, 9th Floor
New York, NY 10041
Attention: General Counsel

Note: if your signed documents are not postmarked
by [date], 2017, your monetary relief award may be
forfeited.

C-76
APPENDIX D
NOTICE OF AWARD OF RETROACTIVE
SENIORITY RELIEF
Re: United States of America v. City of New York
17 Civ. 0364 (U.S. Dist. Ct. S.D.N.Y,)
On [date], the Court approved a final monetary
award list pursuant to the Consent Decree entered
by the Court earlier in this case. You are receiving
this Notice because the Court has determined that
you are eligible for retroactive seniority for the
Supervisor of Mechanics (Mechanical Equipment)
position corresponding to June 9, 2013, which
includes seniority for the purposes of calculating my
salary or other pay, as well as any other purpose for
Which seniority is used to determine the amount of
or eligibility for employment benefits.
PLEASE READ THIS NOTICE CAREFULLY
a.

Fill out completely the enclosed Acceptance
of Monetary Relief and/or Retroactive
Seniority Relief and Release of Claims form,
including all requested information, initial
the first page of the form, and sign it.

b.

Return the completed Acceptance of
Monetary
Relief
and/or
Retroactive
Seniority Relief and Release of Claims form
to the NYCDOT Office of the General
Counsel within the Division of Legal Affairs
no later than [date]. Send these documents
by U.S. mail to:

C-77
The City of New York, Department
of Transportation
Division of Legal Affairs
55 Water Street, 9th Floor
New York, NY 10041
Attention: General Counsel
Note: if your signed documents are not postmarked
by [date], 2017, your monetary relief award may be
forfeited.

C-78
APPENDIX E
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
17 Civ. 0364 (JGK)
————————————————————
UNITED STATES OF AMERICA,
v.
CITY OF NEW YORK,

Plaintiff,

Defendant.

————————————————————
ACCEPTANCE OF INDIVIDUAL RELIEF
AWARD AND RELEASE OF CLAIMS
I, _________, have received notice from the United
States Department of Justice of the monetary relief
award offered to me pursuant to the provisions of the
Consent Decree entered by the Court on _________ in
the above-named lawsuit. The Complaint and the
Consent Decree are included with this notice.
The MONETARY RELIEF AWARD I am being
offered consists of:
1. A backpay award of __________ dollars
($_________), less required tax withholdings; and
2. An award for emotional distress of _________
dollars ($_________).
* ___ I ACCEPT THIS AWARD
* INITIAL HERE: __________

C-79
[Add where applicable]
I, __________, also am being offered the
opportunity to be given retroactive seniority for the
Supervisor of Mechanics (Mechanical Equipment)
position corresponding to June 9, 2013, which
includes seniority for the purposes of calculating my
salary or other pay, as well as any other purpose for
which seniority is used to determine the amount of or
eligibility for employment benefits.
* ___ I ACCEPT THIS AWARD
* INITIAL HERE: __________
In consideration for this award of the relief stated
above, I fully and finally release the City of New
York, the New York City Department of
Transportation, as well as any others that could have
been named as defendants in this Action, their
successors, or assigns, and all past and present
officials, employees, representatives and agents of
the New York City Department of Transportation
(collectively “Released Parties”) from any and all
claims, liabilities or causes of action arising out of
the allegations in the Complaint, including all claims
arising under Title VII of the Civil Rights Act of
1964, the United States Constitution, the New York
State Human Rights Law, the New York City Hunan
Rights Law, and any and all common law claims,
including claims for attorney’s fees, costs and
distributions.
The release of claims contained herein is not
conditioned on my receipt of any other relief under
the Consent Decree that was entered by the Court
on [date] and resolved the above-referenced lawsuit.

C-80
I understand that this release may not be changed,
modified or revoked orally.
I understand that I must properly and completely
fill out this Acceptance of Monetary Relief and/or
Retroactive Seniority Relief, initial the first page of
this form, sign the form and return it to the
NYCDOT Office of the General Counsel within the
Division of Legal Affairs no later than [date] in order
to receive the award.
I also understand that I must complete and return
the enclosed forms.
I HAVE READ THIS ACCEPTANCE OF
MONETARY
RELIEF
AND
RETROACTIVE
SENIORITY RELIEF AND RELEASE OF CLAIMS
FORM AND UNDERSTAND THE CONTENTS
THEREOF. I SIGN THIS FORM OF MY OWN
FREE ACT AND DEED.
* _________________
Date Signed

* _________________
Signature

* _______________________________________________
(Street Address) (City) (State) (Zip Code)
* ( ) ____________ (Home Telephone)
* ( ) ____________ (Work Telephone)
* ____________ (Social Security Number)
Your E-Mail Address: * ____________
If your contact information, including your mailing
address, changes at any time after you submit this
form, please advise Department of Transportation,
Division of Legal Affairs in writing of the change.
You can direct any correspondence regarding a
change in contact information to address listed

C-81
below. Otherwise, we may be unable to contact you
during future steps in the award process.
Return this and the enclosed forms to:
The City of New York, Department
of Transportation
Division of Legal Affairs
55 Water Street, 9th Floor
New York, NY 10041
Attention: General Counsel

C-82
Exhibit C to Amended Complaint Article, “DOT is Found to Have Permitted
Climate of Bias and Racial Slurs”, Published at
http://thechiefleader.com on June 26, 2017
DOT is Found to Have Permitted Climate Of Bias
and Racial Slurs
Union Leader ‘At Loss For Words,’ While Agency
Ducks on Inaction
By BOB HENNELLY Jun 26,2017
[photographs in original]
[subtitles]
JOON H. KIM: A hostile climate for minority staff.
ARTHUR CHELIOTES: ‘Still boys will be boys.’
JOSEPH COLANGELO: Stunned and ‘disgusted.’
The admission of job bias by the City of New York
in a consent decree it reached with the U.S.
Department of Justice detailing the racist treatment
of employees of color by supervisors in the
Department of Transportation prompted labor
leaders to call on the de Blasio administration to
take a closer look at how it is handling race in the
workplace.
On June 14, the city agreed to pay $1.3 million to
settle allegations that, from 2007 up until the middle
of 2016, employees of color in the Fleet Services unit
were regularly called “monkey, nigger and gorilla,”
denied advancement to which they were entitled,
retaliated against if they complained, and even
threatened with bodily harm.
‘Racial Animus Thrived’
In the consent decree, the DOJ asserted “the city
failed to promote racial-minority employees to
supervisory positions and retaliated against those

C-83
who criticized the discrimination” and “condoned a
management culture in which overt racial animus
and inferred racial preference were both tolerated
and allowed to thrive.”
“For almost a decade, in clear violation of Federal
law, supervisors in New York City’s Department of
Transportation engaged in a pattern and practice of
discrimination against racial minorities,” Joon H.
Kim, the Acting U.S. Attorney for the Southern
District of New York, said in a statement. “They
tolerated the use of racial epithets, systematically
excluded
racial
minorities
from
preferred
assignments, and discriminated against minority
candidates for promotions.”
According to the DOJ, the duration of the
discrimination at Fleet Services reflected a failure of
oversight by the agency of its most-basic compliance
obligations
under
Federal
civil-rights
and
employment law and an unchecked culture of fear
and reprisal. Several deficiencies in the application
of civil-service practice and procedures within NYC
DOT were also flagged. All of the victims in the case
were tenured employees and represented by a union.
14 to Collect
Under the terms of the consent decree, 14 former
and current employees are entitled to a portion of the
$1.3 million. According to a document filed with the
court, the following individuals were listed as being
entitled to back wages of at least $10,000:
Seupersaud Bharat, $176,097; John Arce, $168,625;
Donald Prophete, $140,000; Oliver Redman,
$104,387; Damon Thompson, $71,545; Biro Estrella,
$64,167; Juan Fernandez, $64,167; Albert Grajales,
$64,167;
Honif
Purran,
$64,167;
Motic

C-84
Phanisnaraine, $64,167; Gustavo Rios, $64,167;
Pedro Oca, $64,095; Brian Connolly, $50,000; and
Robert Cona, $10,000. Mr. Bharat, as the initial
EEOC complainant, is entitled to the “sum of
$150,000 as additional compensatory damages” and
“reasonable attorneys’ fees and costs in the amount
of $70,000.”
The consent decree also calls for the granting of
retroactive seniority to the minority employees who
were denied promotions. Over the next three years,
the city must submit regular reports on how it is
addressing the issues involving the inadequacies of
DOT’s EEO program and its promotion process.
Several paragraphs in the document enjoin the city
from retaliating against anyone who cooperated with
the DOJ probe.
‘Institutional Racism’
“Even in a progressive administration, we see the
institutional racism that is still reflected in the
broader culture. It’s still ‘boys will be boys,’ ” said
Arthur Cheliotes, president of CWA Local 1180. “We
need a proactive plan, if we want to deal with
discrimination in a city that still has one of the mostsegregated public-school systems.”
He continued, “The Mayor has begun doing that
with the way he and the NYPD have been
confronting the implicit bias in the way the city has
historically been policed, but this same implicit bias
needs to be acknowledged throughout the city’s
workforce.”
Late in Mayor Michael Bloomberg’s term, CWA
Local 1180 brought a Federal EEOC complaint on
behalf of its members of color who held the title of

C-85
Administrative Manager but were paid a great deal
less than whites who had historically held the same
title. In that case, the EEOC calculated righting the
wage discrimination would cost the city $246 million.
(Both the de Blasio administration and the union
confirmed they are in the final stages of a
settlement.)
Joseph Colangelo, president of SEIU Local 246,
which represents mechanics, confirmed that most of
the names on the list of employees who were victims
belonged to his union at some point in their careers,
but said because they were acting as provisional
supervisors, or had made supervisor, were no longer
part of it. He said provisional employees were
particularly vulnerable to abuses by management,
especially if they were looking for a promotion.
‘Sickened by It’
“But I still am at a loss for words. I am so sickened
by what I just read,” Mr. Colangelo said, referring to
the account last week about the landmark settlement
in this newspaper. ‘‘To think this went on for 10
years and that individuals were subjected to that
type of discrimination in their workplaces goes
beyond anything I have seen on my own.”
He continued, “If my members came to me with
those kinds of allegations, I would have immediately
contacted our attorneys and we would have filed
their complaint with the appropriate agencies. I am
disgusted.”
SEIU Local 621 represents the mechanic
supervisors at the heart of the case. In a phone
interview, the union’s president, Joseph Giattino,
said that he had become aware of the DOJ

C-86
investigation “very late in the process,” adding, “I
have nothing to say at this time.”
Former U.S. Attorney Preet Bharara had
announced back in January that the DOJ was suing
the city, following up on a successful November 2013
U.S. EEOC suit brought by Seupersaud Bharat. Mr.
Bharat, a Fleet Services employee of South Asian
ancestry, alleged he was improperly denied a
Supervisory Mechanic’s title that paid between
$92,000 and $102,000 a year. On Oct. 16, 2014, the
EEOC found for Mr. Bharat, and the DOJ decided to
follow up.
Significant Move
“That in itself should say something, because the
DOJ gets lots and lots of those cases, but they found
this one compelling enough to proceed on,” said Yetta
Kurland, a labor lawyer who specializes in
discrimination cases.
Fleet Services is composed of 200 individuals
covered under civil-service titles like Machinists,
Auto Mechanics, Electricians, Blacksmiths, and
Engineers. The department is responsible for
maintaining thousands of city vehicles, ranging from
heavy-construction equipment to mopeds.
According to DOJ’s filings in 2009, the thenExecutive Director of Fleet Services was subject to a
DOT internal EEO racial-discrimination complaint
that was substantiated against the supervisor who,
amazingly, was also responsible for handling EEO
complaints. After its fact-finding, EEO recommended
the supervisor be demoted, suspended and removed
from his position as an EEO Counselor. The
supervisor chose to retire rather than submit to the

C-87
sanctions and was succeeded in the post by his
deputy, who the DOJ asserted continued the same
racist actions and behaviors.
Mr. Colangelo identified the first Supervisor who
retired as Darren Kaplan. The 2015-16 Green Book
listed John Paterno as the Executive Director of
Fleet Services. An answering machine picked up at
that office’s phone. The NYC DOT press office would
not confirm the identities of the two individuals, only
mentioned as Executive Director I and Executive
Director II in the legal papers. The agency confirmed
that Executive Director II was still on the city
payroll, but said he had been demoted from any
supervisory duties.
Verbal Threat Made
It was Executive Director II who the city
stipulated in the consent decree with the DOJ had
“verbally threatened ... with a threat of physical
violence” a non-management employee who
confronted him about his racist treatment of
minority employees.
When a reporter asked DOT officials why they
were keeping Executive Director II on the payroll
after he physically threatened a city employee, the
agency responded that “Executive Director II was
disciplined for the specific action you mentioned.”
The reporter was admonished not to call any other
employees within DOT and to seek comment only
from the press office. “Any questions about the
content of the complaint should be referred to the
DOJ. The consent decree was drafted consistent with
the DOJ complaint,” the press office wrote in an

C-88
e-mail. E-mails to the Mayor’s press office got no
response.
For Ms. Kurland, the decision to keep Executive
Director II on the city payroll was problematic. “It is
concerning that an employee that threatened
physical violence is still on your workforce,” she said.

C-89
Exhibit D to Amended Complaint (i) Article, “Victim of Bias at DOT Fleet
Services Unit Says Demoting Culprit
Not Enough”, Published at
http://thechiefleader.com on June 30, 2017
Claims Ex-Executive Director Still Has Influence
Victim of Bias At DOT Fleet Services Unit Says
Demoting Culprit Not Enough
By BOB HENNELLY Jun 30, 2017
[photographs in original]
[subtitles]
JOHN PATERNO: Despite his bias, still on city
payroll.
POLLY TROTTENBERG: ‘Won’t tolerate’ biased
behavior.
One of the 14 Department of Transportation
employees who will share a $1.3-million dollar
settlement in a landmark racial-discrimination case
told this newspaper last week that the supervisor
most responsible for his years of misery remains a
powerful figure in the agency even in a lesser
position.
That former supervisor, John Paterno, served as
the Executive Director of Fleet Services from 2010
until last year but was stripped of that role,
according to DOT officials. In the city’s stipulation in
the U.S. Department of Justice consent decree, it
confirmed that in addition to Mr. Paterno’s berating
employees with racial epithets and denying them
promotions they said they’d earned, he physically
threatened workers when he was confronted about
his biased actions.

C-90
‘People Owe Him Favors’
“The guys he has put in pretty high places owe him
favors, and he created this culture, and the
settlement doesn’t unwind that,” said the employee,
who is one of the victims being compensated but does
not want his name used due to the same fear of
retaliation he says he has lived with for years at
DOT. “Paterno continues to exercise influence
because of the many years he’s been with the city,
and one of his pals is even a part-time driver for the
Commissioner herself.”
A call and text to Mr. Paterno’s phone were not
returned.
Fleet Services, under the Division of Roadway
Repair and Maintenance, is composed of 200
individuals in civil-service titles like Machinist, Auto
Mechanic, Electrician, Blacksmith, and Engineer.
The department is responsible for maintaining
thousands of city vehicles, ranging from heavyconstruction equipment to mopeds.
According to the consent decree signed on June 14,
the racist conduct that violated the U.S. Civil Rights
Act, as well as multiple state and city laws, occurred
between 2007 and 2016. That period covers the
tenures of Janette Sadik-Khan, who served as
Transportation Commissioner under Mayor Michael
Bloomberg, and Polly Trottenberg who was
appointed by Mayor de Blasio.
‘A Terrible Chapter’
In a letter to the editor that appears on page 5, Ms.
Trottenberg conceded that this nine-year period did
“represent a terrible chapter in this agency’s
history.” Her letter came after two weeks of stories

C-91
and editorials in this newspaper and multiple
requests for comment from her agency that brought
little substantive response.
In her detailed letter, Ms. Trottenberg added that
“while some of the actions at issue took place over a
decade ago, I have made it clear that, under my
leadership, racism and discriminatory behavior of
any sort are not tolerated. This administration and
this agency believe diversity, tolerance and equal
opportunity are fundamental principles of a fair and
inclusive workplace.”
She said that DOT had been proactive and that
“before the agency even entered into its consent
decree with the Department of Justice, it had
undertaken “aggressive” action, including in 2015
and 2016, “dramatically” restructuring senior
leadership within both the Fleet and Equal
Employment Opportunity units “to address the
concerns raised by the complainants.” A previous
Executive Director of Fleet Services who engaged in
racist practices was simultaneously working with the
EEO unit before he was forced to retire eight years
ago.
DOT added four additional EEO staff members in
September 2016, and promoted three minority
candidates to the Supervisor of Mechanics
Mechanical Equipment title. In July 2016, Ms.
Trottenberg wrote that “DOT removed John Paterno,
the main subject of the investigation, from his
position, reassigning him to a position without
supervisory responsibility and no role in hiring or
promotions.”

C-92
Further Action Possible
She continued, “This case has a long and complex
timeline, dictated by the Department of Justice. In
November 2015, DOJ first informed DOT they were
conducting an investigation. In June 2016, the U.S.
Attorney’s Office for the Southern District of New
York briefed DOT on the factual allegations.
Subsequently, DOT took immediate action on
multiple fronts. Some elements of the case remain
confidential, but we wish to clarify that DOT will
take additional appropriate action against any
employee found to have violated the city’s EEO
Policy.”
Based on the facts stipulated in the consent
decree, Mr. Paterno earned a reputation for having
the DOT bureaucracy wired. According to DOJ’s
filings in 2009, Darren Kaplan, then the Executive
Director of Fleet Services, was hit with a DOT
internal EEO racial discrimination complaint that
was substantiated. Bizarrely, since 1997, Mr. Kaplan
had also been an EEO counselor. After its factfinding, EEO recommended he be demoted,
suspended and removed from his position as a
Counselor.
According to the consent decree, when Mr. Kaplan
learned that the findings had been referred to the
agency’s Office of the Advocate for action, he chose to
retire and the “the city did not continue the formal
disciplinary process against him.”
Paterno Defended Him
During the DOT probe, Mr. Paterno, Mr. Kaplan’s
right-hand man, was given two chances to describe
what he knew and when he knew it regarding Mr.

C-93
Kaplan’s racist and unlawful behavior. In his first
interview on Oct. 23, 2009, Mr. Paterno stood up for
his boss and he “denied having ever” seen
discriminating behavior by Mr. Kaplan.
Just three days later, the consent decree stated,
Mr. Paterno asked for another interview with
investigators in which he said he had observed Mr.
Kaplan “repeatedly” use “racial epithets over the
course of seven years.”
Evidently, Mr. Paterno’s pirouette was executed
successfully. He was given Mr. Kaplan’s job, despite
the fact that, as the stipulation makes clear, he “had
never
reported
these
racially-discriminatory
statements.”
Dr. Harriet Fraad, a city-based mental-health
counselor who helps her clients deal with hostileworkplace issues, believes that the city is sending
the wrong message by retaining Mr. Paterno while
paying his victims the settlement money.
“It doesn’t matter if you stipulate what he did but
then don’t act on it, because it sends this
contradictory message to the victims that there is a
difference between the publicly-stated policy and the
day-to-day reality of the agency,” she said in a phone
interview.
‘Perpetuating the Culture’
She continued, “The city can unwind this by going
back and questioning all of the people that this boss
promoted. If you don’t, you are just perpetuating the
culture.

C-94
“And there is a broader point here,” she said. “You
just can’t threaten violence in the workplace. That
has to be a fireable offense, because if you keep
somebody on like that, you’re saying, ‘don’t worry, we
are looking out to help you preserve your tenure.’ If
you’re a third-grader and you threaten violence in
school, the police are called.”
As for the DOT employee who came forward to this
newspaper, he said, “it’s really not about the money.
I don’t think Polly has a clue about how the structure
really works. She meets with the bosses and not the
working people who could let her know what’s really
going on. I think the least she and the Mayor could
do is to meet with us.”
At a press conference on an unrelated matter
July 29, Mr. de Blasio told this newspaper he had no
details on the landmark settlement, but would
comment once he was updated.
In addition to individual payments ranging from
$10,000 to $176,097, the consent decree also call for
the granting of retroactive seniority to the minority
employees who were improperly denied promotions.
Over the next three years, the city must submit
regular reports on how it addressed the issues
involving the inadequacies of DOT’s EEO program
and its promotion process. Several paragraphs in the
document enjoin the city from retaliating against
anyone who cooperated with the DOJ probe.

C-95
Exhibit D to Amended Complaint (ii) Article, “Mayor Hints Probe at DOT
May Not Be Over”, Published at
http://thechiefleader.com on July 10, 2017
In Racial-Bias Case
Mayor Hints Probe At DOT May Not Be Over
By BOB HENNELLY Jul 10, 2017
Mayor de Blasio last week stood by Transportation
Commissioner Polly Trottenberg’s decision to keep a
former Department of Transportation supervisor on
the payroll who used racial epithets, discriminated
against subordinates of color and threatened some
with physical violence.
But in an interview July 7, Ms. Trottenberg said
that the work on the internal portion of the case was
not yet completed. “Our communications have not
been good on this, in part, because our work is not
finished, but we are not ready to tell you everything
that is coming next because we just can’t,” she said.
“My message to you is that our work is not finished.”
14 to Share $1.3M
A discrimination consent decree between the City
of New York and the U.S. Department of Justice was
filed last month that requires the city to pay 14
Department of Transportation employees a $1.3million settlement for back pay.
The former supervisor, John Paterno, served as
the Executive Director of Fleet Services from 2010
until last year. In the city’s stipulation in the consent
decree, it confirmed that in addition to Mr. Paterno’s
berating employees with racial epithets and denying
them promotions they had earned, he physically

C-96
threatened workers with violence when he was
confronted about his actions.
When the DOT was originally asked about Mr.
Paterno continuing to work for the city, it told a
reporter that he had been demoted and was no
longer a supervisor.
Yet, the Mayor’s response to the same question
suggested that there was actually an ongoing probe,
above and beyond the one that culminated in the
consent decree and settlement. “We have zero
tolerance for this behavior and we are working with
DOT and DOJ on this investigation and reforms. Any
termination in a situation like this would need to
take place after the disciplinary hearings and
investigation,” a statement from the Mayor’s press
office said.
‘Where’s Accountability?’
City Council member Andy King was outraged
that the administration opted to keep Mr. Paterno on
the payroll in any capacity given what it had
conceded about his behavior. ‘‘This is hypocritical in
a city that prides itself on its tolerance and
diversity,” he said in a phone interview. “You just
can’t hand out hush money to the victims with no
accountability for the perpetrator.”
He continued. “Let’s keep it real. If this were three
white women who were complaining about a black
male supervisor doing this stuff, he would have been
terminated and arrested. He would have been
paraded through the press. This is just more of that
history of America where blacks just have to endure
the hatred of whites.”

C-97
One of the 14 DOT employees who will share a
$1.3-million settlement in the landmark racialdiscrimination case told this newspaper late last
month that his prime tormentor, Mr. Paterno,
remained a powerful figure in the agency even in a
lesser position.
Texts and calls to Mr. Paterno phone failed to
produce a response.
‘Still Exercises Influence’
“The guys he has put in pretty high places owe him
favors, and he created this culture, and the
settlement doesn’t unwind that,” said the employee,
who did not want his name used due to the same fear
of retaliation he said he lived with for years at DOT.
“Paterno continues to exercise influence because of
the many years he’s been with the city, and one of
his pals is even a part-time driver for the
Commissioner herself.”
Ms. Trottenberg said that she very much wanted
to meet with the 14 victims in the case, even on a
confidential basis. She said she had been unaware of
the internal anxiety within her agency about Mr.
Paterno’s continued presence and influence in the
agency. ‘‘Those complaints had not come to me until
you all wrote them and obviously now that you have
written about them, it is something we are taking
very seriously,” she said.
She continued, “One of the things that is a little
heart-breaking for me is that employees have gone to
you ... We really do want to create a climate where
people can do that” internally without fear of any
retaliation.

C-98
Who’s in Unit
Fleet Services, under the Division of Roadway
Repair and Maintenance, is composed of 200
individuals in civil-service titles like Machinist, Auto
Mechanic, Electrician, Blacksmith, and Engineer.
The department is responsible for maintaining
thousands of city vehicles, ranging from heavyconstruction equipment to mopeds.
According to the consent decree signed on June 14,
the racist conduct that violated the U.S. Civil Rights
Act as well as multiple state and city laws occurred
between 2007 and 2016 and covered the Bloomberg
as well as the de Blasio administrations.
In a letter to the editor that appeared last week,
Ms. Trottenberg conceded that this nine-year period
did “represent a terrible chapter in this agency’s
history.” Her letter came after two weeks of stories
and editorials in this newspaper and multiple
requests for comment from her agency that brought
little substantive response.
She added that “while some of the actions at issue
took place over a decade ago, I have made it clear
that,
under
my
leadership,
racism
and
discriminatory behavior of any sort are not
tolerated.”
Making Amends
DOT added four additional EEO staff members in
September 2016, and promoted three minority
candidates to the Supervisor of Mechanics
Mechanical Equipment title. In July 2016, Ms.
Trottenberg wrote, “DOT removed John Paterno, the
main subject of the investigation, from his position,
reassigning him to a position without supervisory

C-99
responsibility and no role in hiring or promotions.”
His compensation dropped from $197,000 in 2015 to
$163,000 last year.
In addition to individual payments ranging from
$10,000 to $176,097, the consent decree calls for
granting retroactive seniority to the minority
employees who were improperly denied promotions.
Over the next three years, the city must submit
regular reports on how it addressed the issues
involving the inadequacies of DOT’s EEO program
and its promotion process. Several paragraphs in the
document enjoin the city from retaliating against
anyone who cooperated with the DOJ probe.

C-100
Exhibit E to Amended Complaint Article, “Councilman: Fire Racist Ex-Fleet
Services Head”, Published at
http://thechiefleader.com on July 17, 2017
Demoted But Making $140G
Councilman: Fire Racist Ex-Fleet Services Head
By BOB HENNELLY Jul 17, 2017
[photograph in original]
[subtitle]
DANEEK MILLER: ‘Threats should have ended
career.’
The Chairman of the City Council Committee on
Civil Service and Labor wants the de Blasio
administration to immediately fire a former
Department of Transportation Executive Director
whom the city has admitted subjected subordinates
to years of racist taunts and discriminatory
treatment, and threatened one with physical force
when confronted about his behavior.
“This is a zero-tolerance issue here,” Council
Member I. Daneek Miller said in an interview. “We
just can’t have employees threatening violent
actions. It has to be an offense that prompts
termination.”
Spanned Two Mayors
The Federal court stipulations made by the city
regarding ex-Fleet Services unit head John Paterno
were part of a discrimination consent decree between
the city and the U.S. Department of Justice that was
filed last month. It required the city to pay 14
Department of Transportation employees a total of
$1.3-million in back pay.

C-101
The consent decree covers events that occurred
between 2007 and the middle of 2016 that spanned
the tenures of Janette Sadik-Khan, who served as
Transportation Commissioner under Mayor Michael
Bloomberg, and current Commissioner Polly
Trottenberg.
Mr. Paterno served as the Executive Director of
Fleet Services from 2010 until last year. The city
acknowledged in the consent decree that in addition
to his berating employees with racial epithets and
denying them promotions they had earned, he
physically threatened one worker when confronted
about his actions.
Neither Mayor de Blasio nor Commissioner
Trottenberg have offered an explanation for why Mr.
Paterno continues to be employed by the city in a
non-supervisory capacity at $140,000 a year, except
to say the city’s investigation was ongoing. In an
interview July 7, Ms. Trottenberg said that the work
on the internal portion of the case was still not
completed.
‘Won’t Tolerate This’
In a letter to the editor published earlier this
month, Ms. Trottenberg conceded that this nine-year
period did “represent a terrible chapter in this
agency’s history.” She added that “while some of the
actions at issue took place over a decade ago, I have
made it clear that, under my leadership, racism and
discriminatory behavior of any sort are not tolerated.
This administration and this agency believe
diversity, tolerance and equal opportunity are
fundamental principles of a fair and inclusive
workplace.”

C-102
The city also stipulated that Mr. Paterno in 2009
had attempted to cover up racist conduct by his
predecessor, whom the city permitted to retire rather
than be demoted amid similar charges. After initially
telling DOT investigators he had never seen any
improper behavior out by his boss, Mr. Paterno
changed his story after DOT staff let him know that
his boss had tried to pin the discriminatory behavior
on him. Ultimately, Mr. Paterno, despite his evolving
story, was promoted to run Fleet Services.
The unit, under the Division of Roadway Repair
and Maintenance, is composed of 200 individuals in
civil-service titles like Machinist, Auto Mechanic,
Electrician, Blacksmith, and Engineer. The
department is responsible for maintaining thousands
of city vehicles, ranging from heavy-construction
equipment to mopeds.
Undermined Make-Up
One of the DOT employees of color who were
victims told a reporter that the decision to keep his
tormentor on the payroll totally undermined the
agency’s credibility as far as making amends for the
racist behavior.
“The guys he (Paterno) has put in pretty high
places owe him favors, and he created this culture,
and the settlement doesn’t unwind that,” said the
employee, who did not want his name used.
Council Member Andy King was outraged that the
administration opted to keep Mr. Paterno on the city
payroll in any capacity, calling it “hypocritical in a
city that prides itself on its tolerance and diversity.”

C-103
In addition to individual payments ranging from
$10,000 to $176,097, the consent decree also calls for
the granting of retroactive seniority to the minority
employees who were improperly denied promotions.
Over the next three years, the city must submit
regular reports on how it addressed the past
misconduct.
But for Mr. Miller, the issues raised by the scandal
go deeper. “This is not just about Fleet Services. It
goes to the entire agency, which I believe is one of
the most diversity-challenged agencies in city
government,” he said. “I don’t think that they are
offering sufficient civil-service exams over there, and
that plays out in a way where their workforce does
not represent the diversity of our city. And without
that open-competitive process, the whole system is
more vulnerable to nepotism and politics.”
He continued, “What this shows me is that the
marquee policies that this administration supports,
like diversity and inclusivity, are not trickling down
enough to the neighborhoods and into our city
workforce.”
DOT: Working to Improve
In response to Mr. Miller’s critique, DOT said in a
statement that its 5,000-member workforce was
more than half minority and roughly 30 percent
African-American, comparable to many city agencies.
“Nevertheless, we are continuing our work to
improve diversity at all levels and doing our most to
create a more inclusive workplace for all,” it said.
“DOT has taken a number of aggressive steps to
address the legacy of challenges we face in our Fleet
Division and to create a fairer, more-inclusive and
more-diverse workplace agency-wide that better

C-104
mirrors the population of the city we so proudly
serve.”
The agency said it was “reaching out to all parties
affected during this difficult time to provide support
and address grievances or ongoing conflicts in a
confidential way. This work will be ongoing for some
time to come.”

C-105
Exhibit F to Amended Complaint Letter from Department of Transportation
to John Paterno, Dated June 26, 2017
New York City Department of Transportation
POLLY TROTTENBERG, Commissioner
June 26, 2017
Transmitted via Overnight Mail and E-Mail
John Paterno
1346 Forest Hill Road
Staten Island, NY 10314
Re: Notice of Complaint
Dear Mr. Paterno,
On June 19, 2017, the New York City Department
of Transportation’s Office of Equal Employment
Opportunity received a complaint against you
alleging unlawful retaliation and has opened an
investigation in connection with the complaint. In
sum, the allegation contained in the complaint is
that you have contacted DOT employees in
connection with their participation in the lawsuit
U.S.A. v. City of New York. Specifically, it is alleged
that you appeared at Flatlands Yard on June 16,
2017 and spoke to DOT employees regarding the
consent decree executed in U.S.A. v. City of New
York, including speaking with individuals who are
identified as Claimants in that action. It is a
violation of the City’s EEO policy to retaliate against
or harass any person who asserts his or her rights
regarding employment discrimination by: 1) opposing
discriminatory practices in the workplace; 2)
complaining about prohibited conduct; or 3)

C-106
participating in any way in the complaint and/or
investigation.
You will be contacted by DOT’s Equal Employment
Opportunity office regarding the complaint that has
been received against you. As a result of this
complaint, you are prohibited from having any
contact whatsoever, direct or indirect, with the
following
individuals:
John
Arce,
Bharat
Seupersaud, Robert Conca, Brian Connolly, Biro
Estrella, Juan Fernandez, Albert Grajales, Pedro
Oca, Motie Phanisnaraine, Donald Prophete, Honif
Purran, Oliver Redman, Gustavo Rios and Damon
Thompson. Given that you are on a leave of absence
from DOT, there is no reason for you to communicate
with these individuals for any reason. Furthermore,
you are prohibited from discussing the lawsuit
U.S.A. v. City of New York with any DOT employee.
Your failure to comply with these directives may
result in disciplinary action against you, up to and
including termination.
Thank you,
/s/ James L. Hallman
James L. Hallman
Diversity & EEO Officer
NYC Department of Transportation
Office of Equal Employment Opportunity
59 Maiden Lane, New York, NY 10038
T: 212.839.6600 F: 212.839.6611
www.nyc.gov/dot

C-107
Exhibit G to Amended Complaint Letter from Department of Transportation
to John Paterno, Dated September 15, 2017
New York City Department of Transportation
POLLY TROTTENBERG, Commissioner
September 15, 2017
John Paterno
1346 Forest Hill Road
Staten Island, NY 10314
Re: EEO Complaint # 841-2017-00021
Dear John Paterno:
Please be advised that the EEO Office has
concluded its investigation of the above referenced
complaint which the New York City Department of
Transportation filed alleging discrimination on the
basis of retaliation, in which you were named
respondent
Upon a review of all the pertinent facts presented
in the complaint, DOT finds that the allegations
were substantiated against you.
The following corrective measures will be taken:
1.

Referral of John Paterno to the DOT
Advocate’s Office for appropriate and
applicable disciplinary proceedings;

2.

Explaining to employees of the DOT Fleet
Services Unit the nature of pattern and
practice lawsuits and the general terms of the
Consent Decree entered in United States of
America v. City of New York, 17 Civ. 0364,

C-108
United States District
District of New York;
3.

Court,

Southern

Providing appropriate EEO training regarding
DOT’s anti-retaliation policy and instruction
on how to avoid engaging in retaliation,
including a prohibition on questioning
individuals about their actual or perceived
engagement in protected activity, and
instructing them to consult with the DOT
EEO Office and General Counsel.

Please note that it is a violation of the City’s EEO
Policy to retaliate against or harass any person for
filing a complaint of harassment or discrimination or
cooperating with the investigation of a complaint.
If you have any questions, I can be reached at
(212) 839-6600.
Sincerely,
/s/ James L. Hallman
James L. Hallman
Chief Diversity/EEO Officer
c: Commissioner
NYC Department of Transportation
Office of Equal Employment Opportunity
59 Maiden Lane, New York, NY 10038
T: (212) 839-6600 F: (212) 839-6611
www.nyc.gov/dot

C-109
Exhibit H to Amended Complaint Article, “Ex-DOT Supervisor at Center
of Discrimination Case: I’m Not Guilty”,
Published at http://thechiefleader.com
on July 24, 2017
Ex-DOT Supervisor At Center of Discrimination
Case: I’m Not Guilty
Lawyer Claims Paterno Was Never Interviewed
Before City Reached Agreement
By BOB HENNELLY Jul 24, 2017
[photographs in original]
[subtitles]
JOHN PATERNO: Lawyer insists he’s innocent.
ARTHUR SCHWARTZ: ‘Fair hearing would clear
him.’
POLLY TROTTENBERG: Threatened with lawsuit.
An attorney representing John Paterno, former
head of the Department of Transportation’s Fleet
Services
unit,
has
written
Transportation
Commissioner Polly Trottenberg denying that he
ever berated subordinates of color using racial
epithets, denied them advancement, or threatened
physical violence when confronted about his
behavior.
‘Never Interviewed Him’
Those allegations were stipulated to as facts in a
June 14 consent decree entered into between the city
and the Department of Justice that authorized the
payment of $1.3 million to 14 DOT employees who
were allegedly victimized by Mr. Paterno and his
predecessor as the director of the DOT’s Fleet
Services.

C-110
“Mr. Paterno denies, in its entirety, all of the
allegations made against him in the Federal
complaint and in the Consent Decree,” wrote Arthur
Z. Schwartz Jr., Mr. Paterno’s counsel. “Not once was
he interviewed by DOT staff, the Department of
Justice, or Corporation Counsel’s office. Earlier
Equal Employment Opportunity allegations made
against him at DOT had resulted in a full
exoneration, and we believe that a fair hearing of the
allegations here would similarly exonerate him.”
He continued, “You and the Department and the
City have violated Mr. Paterno’s civil rights and
opened him up to defamatory statements in THE
CHIEF. We demand that you and others at DOT stop
making negative statements about Mr. Paterno, and
that the agency provide a name-clearing process for
him.” He concluded that without such a hearing, Mr.
Paterno would sue “to secure” such a process.
Several times in recent weeks, a reporter reached
out to Mr. Paterno on his cell phone and by text
seeking a response to the charges and to his
demolition. He called back once and left a message
but did not return subsequent texts or calls.
This newspaper forwarded Mr. Schwartz’s letter to
the press offices for DOT, the city’s Corporation
Counsel, and the U.S. Attorney’s Office for the
Southern District seeking comment and asking
whether Mr. Paterno had ever been interviewed by
any of the parties as part of their fact-finding prior to
the consent decree. Both the DOT and the city’s
Corporation Counsel declined to comment because
the matter involved potential litigation. The DOJ
had not responded by press time.

C-111
Goes Back to Bloomberg
Fleet Services, which Mr. Paterno ran until the
middle of 2016, is composed of 200 individuals
working as machinists, auto mechanics, electricians,
blacksmiths, and engineers. The allegations cover
the tenures of both Mayor Bloomberg’s DOT
Commissioner, Janette Sadik Khan, and Mayor de
Blasio’s DOT Commissioner, Polly Trottenberg.
The consent decree entered between the DOJ and
the city goes back to 2009, when Mr. Paterno’s
predecessor as the Executive Director of Fleet
Services was hit with a DOT internal EEO racialdiscrimination complaint that was substantiated
against
him.
After
its
fact-finding,
EEO
recommended
his
predecessor
be
demoted,
suspended and removed from his position. Instead,
that Fleet Services Director resigned.
During the DOT investigation, Mr. Paterno, the
retiring Fleet Services boss’s right-hand man, was
given two chances to describe what he knew and
when he knew it about his boss’s alleged racist
behavior. In his first interview on Oct. 23, 2009,
according to the consent decree, Mr. Paterno stood
up for his boss when asked if he had ever seen him
behave in a racist or discriminatory manner and
“denied having ever’’ seen such behavior from him.
And yet just three days later, the 2017 consent
decree stated, Mr. Paterno asked for another
interview with DOT EEO investigators in which he
said he had observed his ex-boss “repeatedly” use
“racial epithets over the course of seven years.” Mr.
Paterno got promoted to the top Fleet Services spot
even though, according to the stipulation, he “had

C-112
never
reported
statements.”

these

racially-discriminatory

‘Systematic Bias’
In a press release issued last month announcing
the settlement of the discrimination lawsuit with the
city, Joon H. Kim, the Acting U.S. Attorney for the
Southern District of New York, blasted the city for
letting the alleged discriminatory behavior go on
from 2007 until 2016, when DOT demoted Mr.
Paterno from his supervisor status.
“For almost a decade, in clear violation of Federal
law, supervisors in New York City’s Department of
Transportation engaged in a pattern and practice of
discrimination against racial minorities,” Mr. Kim
said a statement. “They tolerated the use of racial
epithets, systematically excluded racial minorities
from preferred assignments, and discriminated
against minority candidates for promotions.”
Then-U.S. Attorney Preet Bharara back in
January announced that the DOJ was suing the city,
following up on a successful November 2013 U.S.
EEOC suit brought by Seupersaud Bharat. Mr.
Bharat, a DOT employee of South Asian ancestry,
worked in the DOT’s Fleet Services unit and alleged
he was improperly excluded from a Supervisory
Mechanic title that paid between $92,000 and
$102,000 a year, based entirely on his race. On
Oct. 16, 2014, the EEOC found for Mr. Bharat.
Under the terms of the settlement, besides the
monetary payments to the victims, the city will
provide retroactive seniority to the minority
employees who were previously denied promotions.
The individuals are entitled to back pay and

C-113
compensatory-damage awards ranging from $60,000
to in excess of $168,000. In addition, the city has
agreed to pay the complainant who brought this case
to the attention of the Equal Employment
Opportunity Commission a total of $150,000 in
compensatory damages and attorney’s fees.
Over the next three years, the city must submit
regular reports on how it is addressing the issues
involving the demonstrated inadequacies of DOT’s
EEO program and its promotion process. Several
paragraphs in the document enjoin the city from
retaliating against anyone who cooperated with the
DOJ probe.
Earlier this month, the Chairman of the City
Council’s Committee on Civil Service and Labor said
the de Blasio administration needed to immediately
fire Mr. Paterno after it had attested in Federal
court to the former DOT supervisor’s racist behavior.
“This is a zero-tolerance issue here,” Council Member
I. Daneek Miller said in an extensive City Hall
interview. “We just can’t have employees threatening
violent actions. It has to be an offense that prompts
termination.”

C-114
Exhibit I to Amended Complaint Letter from Advocates for Justice to
Polly Trottenberg, Dated July 19, 2017
Advocates for Justice
Chartered Attorneys
225 Broadway, Suite 1902
New York, New York 10007
t. (212) 285-1400
f. (212) 285-1410
www.afjlaw.com
Arthur Z. Schwartz
Principal Attorney
aschwartz@afjlaw.com
July 19, 2017
By Fax: (212) 839-6490
Polly Trottenberg
Commissioner
NYC Department of Transportation
55 Water Street
New York, NY 10041
Re: Joseph Paterno
Dear Ms. Trottenberg:
This office has been retained to represent Joseph
Paterno, currently employed by the New York City
Department of Transportation.
Recently the City of New York, represented by
your agency, was sued by the Department of Justice,
and the complaint contained numerous allegations
about racially discriminatory actions by someone

C-115
identified as “Executive Director II.” In June, the
City entered into a Consent Decree in which it
admitted some of the spurious allegations made
against and about “Executive Director II.”
Subsequently, The Chief, a weekly newspaper widely
read by City employees, published several stories
identifying “Executive Director II” as Joseph
Paterno.
In last week’s Chief, you responded to questions
about Mr. Paterno by stating that “Joseph Paterno,
the main subject of the investigation” was “removed
... from his position, reassigning him to a position
without supervisory responsibilities and no role in
hiring or promotions.” The Chief was also told that
Mr. Paterno’s compensation went from $197,000 in
2015 to $163,000 in 2016.
Mr. Paterno denies, in its entirety, all of the
allegations made against him in the federal
complaint and in the Consent Decree. Not once was
he interviewed by DOT staff, the Department of
Justice, or Corporation Counsel’s office. Earlier EEO
allegations made against him at DOT had resulted in
a full exoneration, and we believe that a fair hearing
of the allegations here would similarly exonerate
him.
You and the Department and the City have
violated Mr. Paterno’s civil rights and opened him up
to defamatory statements in The Chief. We demand
that you and others at DOT stop making negative
statements about Mr. Paterno, and that the agency
provide a name-clearing process for him.
If we cannot work out such a process, a lawsuit to
secure such a process will follow.

C-116
Very truly yours,
/s/ Arthur Z. Schwartz
Arthur Z. Schwartz
AZS:dr
cc:

Andrea O’Connor, Esq.
Joseph Paterno
Kenneth Gordon, Esq.

C-117
Exhibit L to Amended Complaint Notice of Informal Conference,
Dated January 30, 2018, with
Exhibit A Attached thereto
New York City Department of Transportation
POLLY TROTTENBERG, Commissioner
January 30, 2018
John Paterno
1346 Forest Hill Road
Staten Island, New York 10314
Re: NOTICE OF INFORMAL CONFERENCE
Dear Mr. Paterno:
You are hereby notified that the charges detailed
in Exhibit A attached to this notice and made a part
hereof are preferred against you.
An Informal Conference will be held before a
Conference Leader on Wednesday, February 14,
2018 at 10:00 am. at the NYC Department of
Transportation, Office of the Advocate, 55 Water
Street, 8th Floor, New York, New York 10041 at
which Informal Conference you may appear and be
represented by a union representative or legal
counsel.
The Conference Leader shall issue a written
decision following the Conference. After you receive
the Conference Leader’s decision, you must choose
whether to accept such decision or to proceed with a
hearing pursuant to the provisions of Section 75 of
the New York Civil Service Law. As a condition of
accepting the Conference Leader’s decision, you will
be required to sign a waiver of your right to the

C-118
procedures available to you under Sections 75 and 76
of the New York Civil Service Law.
If you do not accept the Conference Leader’s
decision, a hearing, in accordance with Section 75 of
the New York Civil Service Law, will be scheduled at
the NYC Office of Administrative Trials and
Hearings (“OATH”) located at 100 Church Street,
12th Floor, New York, New York 10007.
At this hearing you may appear and be
represented by counsel of your own choice and you
may summon witnesses to testify on your behalf,
present other proof and cross examine witnesses
testifying against you.
As an alternative to a Section 75 hearing, and if
your union contract contains such a provision, within
five (5) work days of receipt of the Conference
Leader’s decision, your union, with your consent,
may choose to proceed in accordance with the
Grievance Procedure set forth in its contract with the
City of New York. As a condition to submitting the
matter to the Grievance Procedure, you and your
union must file a written waiver of the right to
utilize the procedure available to you pursuant to
Sections 75 and 76 of the New York Civil Service
Law or any other administrative or judicial tribunal,
except for the purposes of enforcing the Arbitrator’s
award, if any.
All further notices, or communications addressed
to you in connection with these charges will be
mailed to your latest address on record with the NYC
Department of Transportation, unless you request in
writing that the same be sent to you at a different
address.

C-119
If you are a permanent employee entitled to a
hearing pursuant to Section 75 of the Civil Service
Law, please see page 3 attached hereto, for a notice
of your rights pursuant to the OATH Rules of
Practice and Procedure.
Sincerely,
/s/ Erica Caraway
Erica Caraway, Esq.
Disciplinary Counsel
Attachments

cc: Conference Leader, files
NYC Department of Transportation
Human Resources and Facilities Management
55 Water Street, New York, NY 10041
T: 212.839-9456 F: 212-839-9729
www.nyc.gov/dot

C-120
NOTICE
Statement of your relevant rights pursuant to
OATH Rules of Practice and Procedure.
1.

You have a right to file an answer to these
Charges. If you have been personally served,
you have eight days from service of the
Charges to file an answer. If you have been
served by mail, you have thirteen days from
mailing of the Charges to file an answer.
Answers should be mailed to the NYC
Department of Transportation, Office of the
Advocate, 55 Water Street, 8th Floor, New
York, NY 10041.

2.

You have a right to representation by an
attorney or other representative at each stage
of the disciplinary hearing.

3.

Your representative must file a Notice of
Appearance with OATH, 100 Church Street,
12th Floor, New York, NY 10007.

4.

OATH’s Rules of Practice and Procedure are
published in Title 48 of the Rules of the City of
New York and are available at OATH, 100
Church Street, 12th Floor, New York, NY
10007.

Received By: ____________________
Date: ____________________
NYC Department of Transportation
Human Resources and Facilities Management
55 Water Street, New York, NY 10041
T: 212.839-9456 F: 212-839-9729
www.nyc.gov/dot

C-121
John Paterno
Supervisor of Mechanics (Mechanical Equipment)
Employee ID# 0176044
January 30, 2018
EXHIBIT A
PLEASE
TAKE
NOTICE
THAT
THE
RESPONDENT JOHN PATERNO IS HEREBY
CHARGED WITH VIOLATING THE NYC
DEPARTMENT
OF
TRANSPORTATION’S
(“DOT”) CODE OF CONDUCT (“CODE”) AND
THE EQUAL EMPLOYMENT OPPORTUNITY
POLICY OF THE CITY OF NEW YORK [2014]
(“CITY OF NEW YORK EEO POLICY”) AS
FOLLOWS:
CHARGE I:
The Respondent is in violation Section II (D)
of the Equal Employment Opportunity Policy
of the City of New York (2014).
Specification I:
The Respondent is a Supervisor of Mechanics
assigned to the agency’s Fleet Services Division in
Staten Island. Respondent has been on a leave of
absence since April 16, 2017.
On or about June 16, 2017, while on a leave of
absence, the Respondent went to a DOT facility
located at 6080 Flatlands Avenue, Brooklyn, New
York.
On June 16, 2017, the Respondent had no official
business at the agency’s Flatlands Avenue facility.

C-122
Upon his arrival at the DOT Flatlands Avenue
facility on June 16, 2017, the Respondent informed
DOT employee Andrew Cohen that a Federal
Consent Decree in the matter of United States of
America v. City of New York, 17 Civ. 0364
(JGK)(2017) was awarded. The Consent Decree
awarded fourteen (14) DOT employees monetary
damages related in part to alleged discriminatory
actions taken by the Respondent.
Cohen viewed the Consent Decree on his DOT
assigned computer.
On June 16, 2017 the Respondent questioned
subordinate, minority employees assigned to the
DOT Flatlands Avenue facility about their
participation in the matter of United States of
America v. City of New York, 17 Civ. 0364
(JGK)(2017) and the resulting Consent Decree.
On June 16, 2017, the Respondent engaged in
retaliatory practices prohibited by Section II (D) of
the City of New York EEO Policy when he
questioned subordinate, minority employees who
were recipients of monetary rewards resulting
from the aforementioned lawsuit and related
Consent Decree.
Specification 2:
On June 16, 2017, the Respondent questioned
subordinate, minority employees assigned to the
DOT Flatlands Avenue facility and asked them if
they testified against him in the matter of United
States of America v. City of New York, 17 Civ.
0364 (JGK)(2017) and the resulting Consent
Decree.

C-123
On June 16, 2017, the Respondent engaged in
retaliatory practices prohibited by Section II (D) of
the City of New York EEO Policy when he
questioned subordinate, minority employees who
were recipients of monetary rewards resulting
from the aforementioned lawsuit and resulting
Consent Decree.
Specification 3:
On June 16, 2017, the Respondent met with
subordinate, minority employees assigned to the
DOT Flatlands Avenue facility. The Respondent
discussed and disclosed to Auto Mechanic Honif
Purran the specific Consent Decree reward issued
to Mr. Purran stemming from the matter of United
States of America v. City of New York, 17 Civ.
0364 (JGK)(2017).
On June 16, 2017 the Respondent engaged in
retaliatory practices prohibited by Section II (D) of
the City of New York EEO Policy.
Specification 4:
On June 16, 2017, the Respondent met with
subordinate, minority employees assigned to the
DOT Flatlands Avenue facility. The Respondent
discussed and disclosed to Auto Mechanic Motie
Phanisaraine the specific Consent Decree reward
issued to Mr. Phanisaraine stemming from the
matter of United States of America v. City of New
York, 17 Civ. 0364 (JGK)(2017).
On June 16, 2017 the Respondent engaged in
retaliatory practices prohibited by Section II (D) of
the City of New York EEO Policy.

C-124
CHARGE II:
The Respondent is in violation of Paragraph
2 of the Code in that he engaged in conduct
prejudicial to the good order and discipline
of DOT.
Specification 1:
Repeat and reiterate Charge I and it’s respective
Specifications.
CHARGE III:
The Respondent is in violation of Paragraph
1 of the Code in that he engaged in conduct
tending to bring the City of New York, DOT
or any other City agency into disrepute.
Specification I:
Repeat and reiterate Charges I through II and
their respective Specifications.
ATTACHMENT A
Equal Employment Opportunity Policy Of The City
of New York (2014)

